U.S. Department of Justice
Office of the Inspector General




          A Review of U.S. Attorney 

          Travel that Exceeded the 

          Government Lodging Rate





                                  Office of the Inspector General
                                  Oversight and Review Division
                                                  November 2010
                                   TABLE OF CONTENTS
TABLE OF CONTENTS ................................................................................ i

INDEX OF TABLES .................................................................................... ii

I.      INTRODUCTION ............................................................................... 1
        A.      Scope and Methodology of this Review ..................................... 1
        B.      Organization of this Report ...................................................... 2

II.     RELEVANT REGULATIONS AND POLICIES ....................................... 3
        A.      Authorization in Advance ........................................................ 4
        B.      Circumstances Justifying Exceeding the Government Rate ...... 5
        C.      Documentation Requirements ................................................. 7
        D.      Approval of Vouchers .............................................................. 8

III.    OIG REVIEW .................................................................................... 9
        A.      Overview of U.S. Attorney Lodging Reimbursements ................ 9
        B.      Individual U.S. Attorneys with Patterns of Questionable
                Lodging Reimbursements ...................................................... 14
        C.      Other Examples of Questionable Travel ................................. 23

IV.     OIG ANALYSIS AND RECOMMENDATIONS ..................................... 26
        A.      Deficiencies in DOJ Travel Policies ........................................ 26
        B.      Deficiencies in Internal Controls ............................................ 27
        C.      OIG Assessment of 2010 Policy Revisions .............................. 30
        D.      Recommendations ................................................................. 32

V.      CONCLUSION ................................................................................. 34

APPENDICES




                                                      i
                         INDEX OF TABLES
                                                                   Page
Table 1   Analysis of the Number of U.S. Attorneys that Exceeded   10
          the Government Lodging Rate

Table 2   Analysis of U.S. Attorney Travel Vouchers with           12
          Adequately Justified Reasons for Exceeding the
          Government Lodging Rate

Table 3   Analysis of U.S. Attorney Travel Vouchers with           13
          Inadequately Justified Reasons for Exceeding the
          Government Lodging Rate




                                    ii
I.     INTRODUCTION

       This report summarizes the results of a review by the Department of
Justice (Department or DOJ) Office of the Inspector General (OIG) concerning
travel by United States Attorneys (U.S. Attorneys) that exceeded the federal
government lodging rates. The OIG initiated this review in response to
concerns that certain U.S. Attorneys may have expended excessive funds on
government lodging. Our review sought to determine: (1) how often U.S.
Attorneys received reimbursement for travel expenses in excess of the federal
government lodging rates when on official travel during calendar years 2007-
2009, and (2) whether U.S. Attorneys complied with Department policy when
exceeding the government lodging rates.

       During the period of our review many U.S. Attorneys or their
subordinates approved their own travel and travel expenses. Despite the lack
of effective oversight, the large majority of U.S. Attorneys rarely or never
exceeded the government lodging rate. 1 However, a small number of U.S.
Attorneys routinely exceeded the government rate, by large amounts, with
insufficient, inaccurate, or no justification. As detailed below, we recommend
that the Department clarify the relevant Department policies and procedures to
ensure that there is independent and effective review of travel by U.S.
Attorneys.

       A.      Scope and Methodology of this Review

      To conduct this review, we examined DOJ travel policies, Executive Office
for United States Attorneys (EOUSA) documents, Justice Management Division
(JMD) Financial Management Information System (FMIS) records, and U.S.
Attorneys’ travel vouchers and related documentation. We also interviewed 48
witnesses about these travel issues, including officials from JMD and EOUSA,
9 former U.S. Attorneys who served in the position during calendar years 2007-
2009, and U.S. Attorney’s Office (USAO) employees who assisted those U.S.
Attorneys with their travel plans and documentation. 2

      There are 93 U.S. Attorneys, and during the period of our review (2007-
2009), 208 individuals served as U.S. Attorneys. At our request, JMD itemized

        1 For ease of reference, we refer to all of these individuals as “U.S. Attorney,” although

some served as court-appointed, interim, or acting U.S. Attorneys rather than as presidential
appointees. Our review was limited to travel by U.S. Attorneys, and we excluded trips by U.S.
Attorneys acting in other positions for DOJ entities. For example, we did not include travel
paid for and on behalf of a U.S. Attorney in the capacity as Acting Director of another DOJ
office.
       2  None of the U.S. Attorneys we contacted are currently serving as U.S. Attorney. Every
U.S. Attorney we asked to interview consented to an interview except for two, as detailed below.


                                                 1
the travel costs that the Department reimbursed to these U.S. Attorneys. In
addition, the USAOs provided the OIG with the U.S. Attorneys’ travel
documents which, among other items, included travel authorizations,
vouchers, and receipts. We then calculated the percentage of vouchers with
lodging that exceeded the government rate.

       Based on the JMD data, we identified 16 U.S. Attorneys for closer
examination due to the significant number or percentage of claims they
submitted for reimbursement above the government rate. We conducted a
detailed review of the lodging reimbursement claims made by these 16 U.S.
Attorneys. Of these, we identified five U.S. Attorneys who exhibited a
noteworthy pattern of exceeding the government rate and whose travel
documentation provided insufficient, inaccurate, or no justification for the
higher lodging rates. We also identified other U.S. Attorney travel practices
that did not rise to the level of a pattern associated with a particular U.S.
Attorney but that we found questionable.

      B.    Organization of this Report

      In Part II of this report, we describe relevant Department travel policies
in detail. In Part III, we describe our findings regarding lodging
reimbursements paid to U.S. Attorneys. We also set forth our analysis of
systemic issues contributing to problematic lodging reimbursements and
recommendations for improvements in Part IV. We present our conclusions in
Part V.




                                        2
II.    RELEVANT REGULATIONS AND POLICIES

       The Federal Travel Regulation (FTR), codified at 41 Code of Federal
Regulations (C.F.R.) Chapters 300 through 304, implements the federal
statutory requirements and executive branch policies governing employee
travel at government expense. Issued by the General Services Administration
(GSA), the FTR contains the minimal requirements that DOJ and other federal
entities subject to the FTR must implement.

      The primary travel policy within the Department of Justice is the DOJ
Travel Order, approved by the Office of the Deputy Attorney General. The DOJ
Travel Order provides specific requirements for Department travel.

      In addition, JMD issued a Travel Supplement with the policies and
procedures necessary to implement the Travel Order. JMD also issues
Bulletins that address specific travel issues, such as when travelers may
exceed the government lodging rate, and Travel Guides, which synthesize the
Department’s travel policies in question and answer format.

      Department travel policies and procedures are also discussed in the
United States Attorneys’ Manual, a reference manual of policies and
procedures for U.S. Attorneys, Assistant U.S. Attorneys, and Department
attorneys. 3

       The regulations and policies of particular relevance to this review are
described in the subsections below. Briefly, government travel should be
approved in advance through a “travel authorization” signed by a designated
supervisor. The travel authorization must state the purpose of the travel and
include the anticipated amounts for certain travel expenses, including lodging.
Lodging costs in excess of prescribed per-night rates (which vary according to
location and date), known generally as the “government rate,” cannot be
authorized or reimbursed except in specific circumstances.



       3 The DOJ Travel Order is numbered as “DOJ 2200.11H” and can be found on the

Department’s Intranet under the link labeled “DOJ Travel.” The current version of the Travel
Order was approved on March 14, 2006, by the Acting Deputy Attorney General.
        JMD provided the OIG with the DOJ Travel Supplement, which JMD is in the process of
reissuing in a question/answer format. The Bulletins and the Travel Guides are available on
the DOJ Intranet under the link labeled “DOJ Travel.” While there are several Travel Guides,
the Travel Guide relevant to this report is the Temporary Duty Travel Guide, which was most
recently issued in June 2001.
       The United States Attorneys’ Manual is located on the DOJ Intranet. EOUSA
coordinates the periodic revision of the Manual in consultation with the Attorney General,
Deputy Attorney General, and Associate Attorney General. United States Attorneys’ Manual
§ 1-1.200.


                                              3
       The traveler typically pays for the expenses of the trip, such as
transportation and lodging, with a government-issued credit card. The traveler
is responsible for paying all amounts charged to the card. The traveler obtains
reimbursement for the costs of the trip by submitting a “travel voucher”
itemizing the expenses of the travel and attaching receipts for authorized travel
expenses.

      A.    Authorization in Advance

       The FTR generally requires that all travel be authorized by the agency
head or an official to whom such authority has been delegated. 41 C.F.R. §
301-71.104. The DOJ Travel Order requires that travel be authorized by
someone in a “higher level position than the traveler.” As applied to U.S.
Attorneys, the Travel Order requires the person in the higher level position to
approve out-of-district travel by U.S. Attorneys but does not identify the
position of this person. The Travel Order allows U.S. Attorneys to approve their
own in-district travel. Among other things, the authorization requirement is
designed to ensure that travel has a proper purpose in advancement of the
agency’s mission.

      Another function of the authorization requirement is to ensure
compliance with rules regarding government lodging rates. The FTR states that
a request for authorization for reimbursement in excess of the government rate
should be made in advance of travel. 41 C.F.R. § 301-11.302. The traveler
must state the anticipated lodging rates on the travel authorization, and the
authorizing official can approve or deny a request to exceed the government
rate.

       During the period covered by our review, DOJ policies were inconsistent
regarding who must authorize travel by U.S. Attorneys. Section 4(g) of the
Travel Order stated that U.S. Attorneys may authorize their own travel, “but
only within their own districts or regions.” (Emphasis in original.) In
contrast, the JMD Travel Supplement permitted U.S. Attorneys to authorize
their own travel whether in or out of their own districts. Similarly, the United
States Attorneys’ Manual states that U.S. Attorneys “may authorize their own
travel (except foreign and first class) as well as that of their subordinates
anywhere within the United States. . . .” (Emphasis added.) Many of the U.S.
Attorneys and USAO employees told us that they relied on the language of the
United States Attorneys’ Manual when approving U.S. Attorney travel. We
found that during the period of our review, most U.S. Attorney travel was
authorized by the U.S. Attorneys themselves, or by their subordinates,
including instances of authorizing lodging above the government rate.

      In 2003, when there were a large number of interim U.S. Attorneys,
EOUSA asked U.S. Attorneys to send their out-of district travel authorizations
to an EOUSA e-mail box, where they were reviewed by the EOUSA Senior
Advisor for Management and Operations. EOUSA told the U.S. Attorneys that
                                        4
the procedure was necessary to comply with the Travel Order. During the
period of our review, many U.S. Attorneys still sent their travel authorizations
to EOUSA, but this practice was neither universal nor consistent. We also
found that the Senior Advisor’s review was limited and deferential. The Senior
Advisor told us that the United States Attorneys’ Manual gave U.S. Attorneys
authority to approve their own travel and lodging over the government rate. He
said that the EOUSA review was to ensure that the U.S. Attorneys’ travel would
not create appearance problems for the Department. The Senior Advisor said
that because of the limited nature of the review, he did not examine whether
the U.S. Attorney’s lodging rate exceeded the government rate.

       B.       Circumstances Justifying Exceeding the Government Rate

       As a general principle, the FTR requires that employees traveling on
official business exercise “the same care in incurring expenses that a prudent
person would exercise if traveling on personal business.” 41 C.F.R. § 301-2.3.
In addition, it states that excess costs which are unnecessary or unjustified in
the performance of official business are not reimbursable. 41 C.F.R. § 301-2.4.

      More specifically, the FTR sets forth government rates for the
reimbursement of lodging costs. 41 C.F.R. §. 301-11.6. 4 The government rate
varies according to location and may further depend on the dates of travel. For
example, the government rate for New York City in fiscal year 2009 ranged from
$360 per night between October 1 and December 31, 2008, to $259 per night
between July 1 and August 31, 2009. In contrast, the government rate for
Peoria, Illinois, was $70 per night for all of fiscal year 2009.

      The FTR recognizes, however, that there are circumstances in which an
employee would be justified in exceeding the government rate. Specifically, the
FTR allows travelers to be reimbursed for lodging costs which exceed the
government rate under four circumstances:
           1.   Lodging is procured at a prearranged place such as a hotel where a
                meeting, conference, or training session is held;
           2.   Costs have escalated because of special events (such as sporting
                events or conventions);
           3.   Because of “mission requirements”; or
           4.   Any other reason approved within the traveler’s agency.
41 C.F.R. § 301-11.300.


       4 The lodging rate for travel within the continental United States is determined by the
General Services Administration. The rate for foreign travel is determined by the State
Department. The rate for non-foreign travel outside the continental United States and to
United States Territories is determined by the Defense Department. 41 C.F.R. §. 301-11.6.


                                               5
       Yet, even where the conditions for exceeding the government rate are
satisfied, reimbursement may not exceed 300 percent of the per diem rate. 41
C.F.R. §§ 301-11.303, 305. Reimbursement for lodging costs in excess of the
government rate is referred to as “actual expense reimbursement” or “actual
subsistence.”

      DOJ travel policies generally restate the FTR criteria for exceeding the
government rate. These criteria are discussed in more detail below.

              1.     Conferences

       The conference exception applies when the organizers of a conference,
meeting, or training have secured a block of rooms for the attendees and the
negotiated rate exceeds the government rate. JMD’s Actual Subsistence
Bulletin and Travel Guide refer to the conference exemption, as does the U.S.
Attorneys’ Manual. 5 According to the JMD’s Assistant Director for Finance
Policies and Requirements, the conference exception does not apply to a
meeting or other event where rooms are not set aside for attendees.

      The maximum reimbursement for lodging at conferences depends on
whether the conference is sponsored by a government agency. The FTR limits
reimbursement for lodging at agency-sponsored conferences to 125 percent of
the government rate (called the “conference rate”). 41 CFR § 301-74.8 et seq.
The FTR does not explicitly address the maximum rate for non-agency-
sponsored conferences, but it limits reimbursement for any lodging to 300
percent of the government rate. 6

              2.     Special Events

       According to the FTR, a traveler may exceed the government rate when
there is an unusual event such as “missile launching periods, sporting events,
World’s Fair, conventions, natural disasters,” and lodging within prescribed
limits is unavailable nearby. 41 CFR § 301-11.300(a). The FTR special event
exception also requires that the added cost of commuting to and from the
closest available room at the government rate would exceed the savings from
utilizing such accommodations (the “commuting cost comparison”). The DOJ



        5 See Actual Subsistence Reimbursement for Official Travel, Financial Management

Policies and Procedures Bulletin No. 99-24, August 1999; Travel Guide at p. 25-26; and United
States Attorneys’ Manual § 3-8.700.
       6  The JMD’s Conference Travel Bulletin correctly restates the FTR rule, but the JMD
Travel Guide does not distinguish between agency and non-agency sponsored conferences. It
states that when a sponsor of a conference arranges for lodging, the sponsor may authorize the
conference rate, up to 125 percent of the government rate, but that if the conference rate is
insufficient, reimbursement up to 300 percent of the government rate may be authorized.


                                              6
Travel Supplement and JMD Actual Subsistence Bulletin also describe the
special events exception. 7

               3.     Mission Requirements

       The FTR and JMD Actual Subsistence Bulletin allow travelers to exceed
the government rate pursuant to “mission requirements.” 8 Neither the FTR nor
DOJ policies explain this exception in detail or identify any circumstances that
must be established in order to invoke it. As written, the mission requirements
exception is far broader and subject to fewer restrictions than the special
events exception described above. However, the JMD Assistant Director for
Financial Management Policies and Requirements told us that the mission
requirements exception is a rarely invoked exception for special circumstances,
such as when the Attorney General could not stay in a hotel room facing the
street for security reasons and a room in another part of the hotel exceeded the
government rate.

      Finally, the FTR also includes an exception for “any other reason
approved by [the traveler’s] agency.” We are not aware that DOJ has approved
any additional exceptions in its travel policies.

       C.      Documentation Requirements

       As noted above, the FTR requires advance authorization for
reimbursement in excess of the government rate. The DOJ Travel Supplement
describes the documentation that is required to justify exceeding the
government rate. The justification must identify: (1) the actual lodging rate,
(2) the reason the traveler must stay at the requested location, (3) the
advantage to the Government in allowing the traveler to stay at the requested
location, and (4) the address and proximity of the lodging to the temporary
worksite. Travel Supplement § 301-8.4(a). 9


       7 See Travel Supplement at 301-8.1(a), 8.4(a), and the Actual Subsistence Bulletin.

The Bulletin and the U.S. Attorneys’ Manual decouple the special event and cost comparison
requirement and present them as separate exceptions. As a result, the Bulletin and U.S.
Attorneys’ Manual provide for a special event exception without a commuting cost comparison
and an unavailability exception that requires a commuting cost comparison but not a special
event.
        8 The United States Attorneys’ Manual contains a similar exception for “special duties

of the assignment.”
       9  The Travel Guide requires that the justification for actual subsistence include three of
the four requirements listed in the Travel Supplement: the actual lodging rate, the reason the
traveler must stay at the requested location, and the advantage to the Government in allowing
the traveler to stay at the requested location. The Guide also requires that the justification
identify the special circumstances that exist at the temporary worksite which caused the
government rate to be unavailable.


                                                7
       Neither the FTR nor DOJ travel policies require that the written
justification for exceeding the government rate identify which exception is being
relied upon. The regulations and policies also do not require the traveler to
document the effort made to find lodging at the government rate or otherwise to
substantiate its unavailability.

      D.    Approval of Vouchers

       After the completion of travel, the traveler must submit a voucher
itemizing the expenses for which reimbursement is sought, together with
receipts. The voucher must be reviewed and approved by a designated official
in order for the traveler to receive reimbursement. The FTR requires that the
person approving travel vouchers be the same person who authorized the travel
“or his/her designee (e.g., supervisor of the traveler).” 41 C.F.R. § 301-71.200.

       The purpose of reviewing travel vouchers is to ensure that the traveler
actually incurred the expenses for which the traveler is seeking
reimbursement, and also to ensure that the traveler is reimbursed only for
appropriate expenses (such as the cost of a hotel room but not additional fees
that may be included on a hotel receipt, like charges for a movie or health
club).

      During the period of our review, DOJ policies were not clear regarding
who must review and approve vouchers submitted by U.S. Attorneys. The DOJ
Travel Order and Travel Supplement stated that reimbursement should be
approved by an official in a higher level position than the traveler or a senior
financial official with knowledge of the travel regulations. The U.S. Attorneys’
Manual permitted U.S. Attorneys to approve their own vouchers.

      In practice, during the period of our review, vouchers for U.S. Attorney
lodging expenses above the government rate were approved by administrative
personnel in the USAO reporting to the U.S. Attorney.

      As detailed below in Section IV.C., in 2010 (after instances of excessive
U.S. Attorney travel received attention in the news media and we began this
review), JMD and EOUSA issued memoranda clarifying who must review U.S.
Attorneys’ authorizations and vouchers.




                                        8
III.   OIG REVIEW

      Our review found that, although many U.S. Attorneys traveled
frequently, the large majority of them rarely or never sought reimbursement
above the government rate for lodging. However, as described below, we found
that several U.S. Attorneys repeatedly authorized their own lodging at hotels
charging more than the government rate, without documenting that the rate
was actually unavailable at another hotel near their temporary duty station.
We identified five U.S. Attorneys who exhibited noteworthy patterns of
exceeding the government rate, and we identified several other troubling
incidents of U.S. Attorneys seeking reimbursement for lodging above the
government rate without justification.

       A.    Overview of U.S. Attorney Lodging Reimbursements

       The 208 U.S. Attorneys who served during 2007-2009 submitted a total
of 4,904 travel vouchers, 3,568 of which included lodging expenses. Based on
this data, we found that, on average, each U.S. Attorney took 12.8 overnight
trips per year. The data exhibited a wide range of travel patterns. For
example, 3 U.S. Attorneys traveled on more than 80 overnight trips, while
several others did not seek any reimbursement for overnight lodging during
government travel.

       During the period of our review, U.S. Attorneys claimed reimbursement
for lodging above the government rate in a large number of cases. Of the 3,568
vouchers with lodging expenses, 724 (20 percent) exceeded the government
lodging rate.

       We believe that the percentage of Department travel where the
reimbursement for lodging exceeds the government rate is significantly lower
than 20 percent. For example, when we asked the JMD Assistant Director for
Finance Policies and Requirements if JMD can provide data on how often
Department travelers exceed the government rate for lodging, she stated that
JMD does not compile precise data on the number of times Department
travelers exceeded the government rate for lodging. However, she said that
according to JMD’s Financial Management Information System (FMIS), 3.4
percent of travelers from the Department’s Offices, Boards, and Divisions
checked the “actual subsistence” box on their travel authorizations during
fiscal years 2007-2009, indicating that their lodging would exceed the
government rate. 10 Moreover, several USAO employees, such as administrative
and budget officers, told us that it was rare for anyone in the USAO, other than
the U.S. Attorney, to exceed the government rate.


       10However, our review indicated that FMIS may underreport the number of travelers
who exceed the government rate.


                                            9
      Therefore, while we cannot say with certainty the exact percentage of
Department travel that exceeds the government rate for lodging, we believe it is
much less than the 20 percent of U.S. Attorney travel that exceeded the
government rate.

      It is also important to note that the frequency of exceeding the
government rate was not uniform among U.S. Attorneys. We found that the
large majority of U.S. Attorneys never or rarely exceeded the government rate.
As shown in Table 1, 71 U.S. Attorneys (34.1 percent) never exceeded the
government rate and 96 U.S. Attorneys (46.2 percent) exceeded it 1 to 5 times.

                                           TABLE 1

             Number of Vouchers              Number of U.S.          Percentage
            Over the Lodging Rate              Attorneys              of Total
                          0                          71                  34.1
                       1 to 5                        96                  46.2
                      6 to 10                        22                  10.6
                     11 to 15                        13                   6.3
                     16 to 20                         3                   1.4
                  More than 20                        3                   1.4
                       Total                        208                 100.0


      We found that the practice of seeking reimbursement above the
government rate was concentrated among a relatively small number of U.S.
Attorneys. Nineteen U.S. Attorneys exceeded the government rate on 11 or
more trips. Together, these 19 U.S. Attorneys submitted a total of 311
vouchers seeking reimbursement for lodging above the government rate. In
other words, fewer than 10 percent of the U.S. Attorneys (19 of 208) accounted
for more than 40 percent of the trips in which the government rate was
exceeded (311 of 724). 11

      As noted above, DOJ travelers are permitted to exceed the government
rate under specified circumstances, such as for certain conferences, during
“special events” that cause the government rate to be unavailable, or as needed
for “mission requirements.” We attempted to determine if the travel
documentation submitted by U.S. Attorneys established any of these

       11  This does not account for the amount of time that a U.S. Attorney served in the
position during the course of our review. For example, some U.S. Attorneys served in the
position and traveled frequently during the entire 3-year period of our review, while others
served in the position for only a few weeks and did not travel during that period.


                                               10
exceptions. In conducting this review, we excluded trips in which the traveler
exceeded the government rate by less than 10 percent, in order to focus on
cases in which the government rate was exceeded by larger amounts. This
limitation left a total of 633 trips by U.S. Attorneys for detailed analysis.

       Our review was hindered by the fact that DOJ policies did not require the
traveler to document precisely which exception was being invoked to justify the
government rate or to document the efforts made to find lodging within the
prescribed limits. In many cases, the travel authorizations or justification
memoranda prepared by or for the U.S. Attorneys stated only that the
government rate was “unavailable.”

      We were able to determine that 302 of these trips qualified under the
conference exception to the government rate: 130 of these trips were for
internal agency-sponsored conferences and 172 were for external conferences,
such as judicial conferences or meetings of law enforcement officials that were
attended by U.S. Attorneys.

       However, it was more difficult to determine from the documents whether
the special event or mission requirement exceptions were properly invoked by
the U.S. Attorneys. Only four U.S. Attorney travel documents specified the
“special event” that caused the government rate to be unavailable, and none
explicitly invoked the mission requirement exception.

       We also found 37 cases in which the U.S. Attorney or his staff
documented an unsuccessful effort to find the government rate, such as a list
of hotels contacted to seek the government rate. We note that such an effort is
not in itself sufficient to satisfy either the special events or the mission
requirements exception. We were told anecdotally by Department employees
that unavailability at three hotels is a standard that some USAOs and DOJ
components use for documenting the unavailability of the government rate.
However, we did not find any basis for this standard in the FTR or in any DOJ
travel policy, and the JMD Assistant Director for Finance Management Policies
and Requirements told us that this 3-hotel standard was not a recognized
exception to the government rate. She said that if an employee has difficulty
finding a hotel that offers the government rate, the employee should contact
the Department’s Travel Management Center for assistance. Yet, because we
believe the 3-hotel standard is a widespread misconception and not limited to
U.S. Attorneys, we treated these 37 cases as adequately justified for purposes
of our analysis.

       In sum, we found that 358 (56.6 percent) of the 633 U.S. Attorney trips
that exceeded the government rate by more than 10 percent were adequately
justified, either because of the conference exception, the documentation
included the efforts to obtain lodging at the government rate at several hotels,
or the lodging was fully reimbursed by a third-party source. Our analysis is
summarized in Table 2.
                                       11
                                         TABLE 2

                                                         Number of       Percentage
      Adequately Justified Reason
                                                         Vouchers         of Total
      Internal agency sponsored conference                   130             36.4
      External conference                                    172             48.0
      Documented efforts to find govt. rate                   37             10.3
      Fully reimbursed by non-federal source                   6              1.7
      Other 12                                                13              3.6
      Total of Adequately Justified Vouchers                 358             100.0


       This analysis left a total 275 travel vouchers (43 percent of the 633
vouchers exceeding the government rate by at least 10 percent) that could not
be justified based on our review of the available documentation. For those 275
vouchers, the travel documentation often failed to include any basis for
exceeding the government rate or simply stated that the government rate was
not available. For example, some justifications merely stated that
reimbursement for lodging above the government rate was approved. Other
justifications contained conclusory statements such as “no government rate
available” without any information to support the conclusion or “boilerplate”
language which repeated the same justification for multiple trips without
addressing the specific circumstances of each trip. In these instances, we were
unable to determine whether there was a special circumstance or any effort to
obtain the government rate anywhere other than at the selected hotel. Our
findings regarding these 275 questionable vouchers are summarized in Table 3.




       12  The “other” category included instances such as when travel plans were cancelled
due to inclement weather.


                                             12
                                          TABLE 3

                                                           Number of       Percentage
      Inadequately Justified Reasons
                                                           Vouchers         of Total
      No justification                                          90              32.7
      Insufficient justification                                154             56.1
      Overbilling 13                                             7               2.5
      Exceeded 300% at external conferences                     17               6.2
      Exceeded 125% at agency conference                         7               2.5
      Total of Inadequately Justified Vouchers                  275            100.0


       It is important to note the absence of a sufficient justification in the
travel documentation does not establish that the costs associated with a
particular trip were inappropriate. As noted in Section II.C., DOJ policies did
not require detailed written substantiation of the exception to the rule limiting
reimbursement to the government rate. 14 In the absence of such a
requirement, the primary check on the propriety of a DOJ traveler’s invocation
of one of the exceptions is the requirement that the authorization for exceeding
the government rate be obtained from a designated official in advance.
However, U.S. Attorneys most often authorized their own travel, which provided
no independent check at all. Even when the travel authorizations were sent to
EOUSA, there was no review of the lodging rate.

       Using this universe of 275 questionable vouchers, we calculated the
percentage of questionable vouchers for each U.S. Attorney in an effort to
identify patterns of problematic claims for reimbursement above the
government rate. We identified five U.S. Attorneys who exhibited noteworthy
patterns of exceeding the government rate and whose travel documentation
provided insufficient, inaccurate, or no justification for the higher lodging rate.
We also identified several other incidents that did not constitute a pattern of
questionable expenses associated with a particular U.S. Attorney but that were
nonetheless troubling. Our specific findings about five U.S. Attorneys and
other troubling incidents are addressed in the next section of this report.

       13 Overbilling occurred when the hotel receipt indicates that cost of the room was less
than the amount claimed on the voucher or when the traveler claimed an extra night of
lodging.
       14 In response to our draft report, JMD noted that JMD’s Actual Subsistence Bulletin
requires a written justification for actual subsistence to be attached to the travel
authorization. While the Bulletin requires written justification, it does not address the
content. The two travel policies that address the content of the justification are the Travel
Supplement and the Travel Guide, described in Section II.C. We found that these policies did
not require detail sufficient to justify actual subsistence or allow for meaningful review.


                                              13
      B.    Individual U.S. Attorneys with Patterns of Questionable
            Lodging Reimbursements

     In this section we discuss our findings regarding the five U.S. Attorneys
who exhibited a noteworthy pattern of exceeding the government rate without
appropriate justification.

            1.     U.S. Attorney A

       During 2007-2009, U.S. Attorney A submitted 82 vouchers that included
reimbursement for lodging, of which 40 (49 percent) exceeded the government
rate for lodging. This was the largest number of trips over the government rate
of any U.S. Attorney during the period of our review.

      We found insufficient justification for 35 of these trips. U.S. Attorney A’s
lodging costs for these trips exceeded the government rate by $17 to $188 per
night. In total, U.S. Attorney A’s lodging for these 35 vouchers exceeded the
government lodging rate by a total of $3,320 (excluding taxes and resort fees).

       Most of U.S. Attorney A’s trips involving lodging above the government
rate (33 in total) were trips to a city within the U.S. Attorney’s district where
there was a second U.S. Attorney’s Office. In that city, U.S. Attorney A always
stayed at one of two hotels that he preferred: a Hilton or a Westin Resort &
Spa. According to the U.S. Attorney’s Administrative Officer, the Hilton was
one of several hotels within walking distance of the local U.S. Attorney’s office.
The Westin Resort & Spa was a short drive from the U.S. Attorney’s office.

       The U.S. Attorney told us that he selected his lodgings and instructed his
Administrative Officer where to make the reservations. The government rate
was available at these two preferred hotels in this city on only four occasions.
Yet, on each of the other occasions that the government rate was not available
at the preferred hotel, the U.S. Attorney stayed there anyway.

       When the government rate was not available, the U.S. Attorney’s
Administrative Officer provided a justification memorandum for approval by
that U.S. Attorney’s Branch Office Chief. Beginning in September 2007, when
the Branch Office Chief retired, the U.S. Attorney’s Administrative Officer
approved the justification memoranda. The justification memoranda for all but
1 of the 33 vouchers stated that the government rate for this city was
“significantly lower than that which is available,” and that lodging at the
requested hotel was requested “[i]n order for me to be located near our office
headquarters and to avoid additional transportation costs and delays in my
schedule.”

      The memoranda did not describe any effort to find lodging at the
government rate at a different hotel. We determined that there was no effort to


                                        14
find a hotel at the government rate because U.S. Attorney A identified the
specific hotel at which he wanted to stay without regard to its cost.

      We also found that the justification memoranda submitted in support of
U.S. Attorney A’s trips were inaccurate and misleading. They stated that the
government rate was not available, when in fact the rate was merely
unavailable at U.S. Attorney A’s preferred hotels. The U.S. Attorney’s
Administrative Officer told us that, in fact, there were several hotels within
walking distance of the office. Therefore there would be no significant delay or
added transportation costs if the U.S. Attorney stayed at one of the other
neighboring hotels. We concluded that U.S. Attorney A did not qualify for any
exception to the government rate and improperly received reimbursement in
excess of that rate for these trips.

       Beginning in December 2007, U.S. Attorney A sought reimbursement
only for the government rate at his two preferred hotels and paid any difference
himself. When we asked what caused the change, the U.S. Attorney said his
Administrative Officer approached him in November or December 2007 and
said that he should consider another hotel or pay the difference between the
cost of lodging at his preferred hotel and the government rate. U.S. Attorney A
said he agreed with his Administrative Officer and paid the difference on 69
subsequent trips to this city at a personal cost of $7,692 (excluding taxes and
resort fees).

      The U.S. Attorney’s Administrative Officer told us that she raised the
issue after the Branch Office Chief retired in September 2007, when the
Administrative Officer assumed responsibility of signing the justification
memoranda. She said it was her job to protect the U.S. Attorney from “negative
exposure” and that over the years she had learned that Department employees
served the taxpayers, not themselves.

            2.    U.S. Attorney B

       During 2007-2009, U.S. Attorney B submitted 68 vouchers that included
reimbursement for lodging. Of the 68 vouchers, 36 (53 percent) exceeded the
government rate for lodging. This U.S. Attorney exceeded the government rate
at the greatest cost to the Department and most often exceeded the government
rate by more than $100 per night.

      We found insufficient justification for exceeding the government rate in
the documents relating to 26 of the 36 vouchers. These 26 vouchers exceeded
the government rate by $18 to $278 per night, for a total of $4,221 (excluding
taxes for domestic travel and resort fees). The U.S. Attorney’s lodging exceeded
the government rate by more than $100 per night on 13 trips.

     There were justification memoranda signed by U.S. Attorney B for all 26
vouchers that we questioned. Yet, 7 of the 26 memoranda state only: “I hereby
                                       15
authorize per diem be exceeded for (city) for (dates) for (the U.S. Attorney).”
These seven memoranda did not identify any justification for exceeding the
government rate. The other 18 memoranda state that no government rates
were available but did not identify any effort to find lodging at the government
rate.

       The U.S. Attorney’s secretary told us that she prepared the memoranda
for the U.S. Attorney’s signature. She asserted that U.S. Attorney B often
asked her to find a hotel at the last minute, and the government rates were not
available at the hotels that she contacted. She said, for example, that on
several occasions the U.S. Attorney traveled to Washington, D.C., for meetings
at DOJ Headquarters. The secretary stated that she contacted a set list of
three to five hotels close to DOJ Headquarters, although she did not document
her efforts. She identified the Willard, the Mayflower, the Renaissance, and the
J.W. Marriott as hotels she contacted. If the government rate was not available
at one of these hotels, the secretary said she would reserve a room at
whichever of these hotels was the least expensive. The U.S. Attorney’s travel
records show that on the 11 occasions that she exceeded the government
lodging rate in Washington, D.C., she stayed at one of four hotels – the
Mayflower, the Renaissance, the J.W. Marriott, and the Grand Hyatt.

       We also determined that U.S. Attorney B also exceeded the government
rate on other occasions without apparent justification. For example, in
January 2009, while attending the inauguration of a state Attorney General,
she stayed at a hotel in a resort destination 15 miles away from the inaugural
city at a cost of $249 per night, which was almost two and a half times the
applicable government rate. The U.S. Attorney’s secretary said that she could
not recall why the U.S. Attorney stayed at this hotel, and no reason was
supplied in the justification memorandum.

       On another occasion, U.S. Attorney B traveled to Tucson, Arizona, for a
conference at a resort hotel. The conference was scheduled from Sunday
through Wednesday. According to the agenda, attendees were invited to
register on Sunday, a reception was scheduled Sunday evening, and the
conference began on Monday. However, U.S. Attorney B flew to Tucson on the
Friday before the conference started and stayed at the resort until she left mid-
day on Monday. She sought and received reimbursement for her lodging for
Friday through Monday. The resort cost $93 per night on Friday and Sunday
and $179 per night on Saturday. The government rate in Tucson was $75 per
night. No explanation was provided for her claiming reimbursement for the
Friday and Saturday nights before the conference began. ∗



       ∗
         After our report was issued, U.S. Attorney B contacted the OIG and stated that she
had traveled to Tucson to speak to a committee that met on Saturday, before the formal
                                                                                      (Cont’d.)
                                              16
       As with all the U.S. Attorneys discussed in this section, we provided U.S.
Attorney B with the relevant travel documents and asked that she participate
in a telephone interview about the lodging. U.S. Attorney B declined our
request for an interview. However, in our efforts to schedule an interview, we
spoke to her briefly on two occasions and received an e-mail from her about
her travel. In these communications, U.S. Attorney B stated that she
sometimes would not know that her lodging was over the government rate until
her secretary asked her to sign a justification memo after she returned from
the trip. U.S. Attorney B also stated that in some cases she expected her hotel
costs to be reimbursed by a third-party and therefore the government rate
lodging was not a concern of hers. She also argued that her secretary was
responsible for third-party reimbursements and that she should not be held
responsible for her secretary’s failures. 15 U.S. Attorney B also stated that in
other cases her office was unable to obtain lodging at the government rate.

       We found that U.S. Attorney B’s explanations for her pattern of claiming
reimbursement for lodging above the government rate was unpersuasive and
that for many of these trips she did not qualify for any exception to the
government rate. In particular, we believe this U.S. Attorney had a practice of
claiming that the government rate was “unavailable” if she could not find it at a
particular hotel or small group of preferred hotels. Neither the FTR nor any
Department policy authorizes Department employees to exceed the government
rate if it is not available at select hotels.

              3.      U.S. Attorney C

       During 2007-2009, U.S. Attorney C submitted 23 vouchers that included
reimbursement for lodging. Of the 23 vouchers, 15 (65 percent) exceeded the
government rate for lodging. After reviewing the travel documents and
interviewing the U.S. Attorney’s secretary, we found insufficient justification for
exceeding the government rate with respect to 14 of the 15 trips. These 14

conference, and that she was also invited to attend other pre-conference events that met on
Sunday, such as a Board of Directors meeting and a reception.
        U.S. Attorney B also provided the OIG with the name of a former official of the
organization sponsoring the conference. The former official confirmed that U.S. Attorney B
spoke to a committee that met prior to the formal conference and that U.S. Attorney B was
invited to attend the board meeting and reception on Sunday.
        We are including this additional information as an asterisk to this report. However, we
note that this specific information was not contained on U.S. Attorney B’s travel documents
and also was not available to the OIG at the time our report was issued because U.S. Attorney
B declined our requests to be interviewed or provide additional documentation related to her
travel.
       15EOUSA is required to pre-approve travel reimbursed by third parties. Our list of 26
questionable trips by U.S. Attorney B does not include any trip that had been pre-approved by
EOUSA that was not reimbursed by the third-party.


                                              17
vouchers exceeded the government rate by $19 to $242 per night, for a total of
$2,176 (excluding taxes for domestic travel). U.S. Attorney C’s lodging costs
exceeded the government rate by more than $100 per night on 9 of the 14
vouchers.

       In terms of the percentage of travel, U.S. Attorney C was the U.S.
Attorney who most often exceeded the government rate without adequate
justification. The U.S. Attorney provided insufficient, inaccurate, or no
justification for 14 of 23 trips (61 percent) that exceeded the government rate.

       Twelve of the 14 vouchers involved travel for one particular case. When
traveling for the case, U.S. Attorney C exceeded the government lodging rate in
five different cities.

      The U.S. Attorney’s secretary told us that she routinely called hotels to
seek the government rate. However, she also said that the U.S. Attorney
selected his hotel if he was familiar with the city and that she would seek a
recommendation for a “decent” hotel if he was not. The secretary told us that if
the recommended hotel did not offer the government rate, she would consider
other hotels but also take into account the time of the meeting and the
distance from the hotel to the meeting site. The secretary stated that the U.S.
Attorney normally stayed at the hotel closest to or at the location of his
meetings.

       Justification memoranda were included in the travel documentation for 9
of the 12 trips related to the case. The justification memoranda were prepared
by the U.S. Attorney’s secretary and signed by the U.S. Attorney. Eight of the
memoranda stated that the government lodging rate was not available in the
particular city on the particular dates and asked that the USAO budget officer
approve the actual cost of the hotel. According to the budget officer, this was
the standard justification memorandum language used by the USAO.
According to the U.S. Attorney’s secretary, the language of the memoranda did
not literally mean that there were “no hotels available at the government rate in
the particular city” but that the government rate was not available at the hotel
or hotels that fit her criteria – a “decent” hotel at or near the meeting site.

      For example, U.S. Attorney C traveled outside of his district to Boston,
Massachusetts, for meetings with representatives of a defendant company at
the Nine Zero Hotel. U.S. Attorney C stayed at the Nine Zero Hotel at a cost of
$449 per night, which was more than double the government rate of $220 per
night in Boston. 16 U.S. Attorney C’s secretary told us that it was a


        16 U.S. Attorney C’s reimbursements for airport transportation costs were also

noteworthy. For example, rather than take a taxi from the Boston airport to the Nine Zero
Hotel in downtown Boston, a trip of approximately 4 miles, he prearranged a car service to and
from the Boston airport to the hotel, which cost the government $236 round trip. In another
                                                                                       (Cont’d.)
                                              18
“coincidence” that these meetings were at the same hotel where she had
reserved a room for the U.S. Attorney.

       In addition to his case-related travel, U.S. Attorney C also exceeded the
government lodging rate when he traveled to Washington, D.C., to speak to an
association. The U.S. Attorney stayed overnight at the Four Seasons Hotel,
where he was scheduled to speak the following morning. The hotel rate at the
Four Seasons was $475 per night, more than double the government rate of
$233 per night. According to the justification memorandum, the U.S. Attorney
stayed at the Four Seasons because his speech was scheduled at that hotel
early in the morning.

      U.S. Attorney C declined our request for an interview. In a letter to the
OIG, U.S. Attorney C’s attorney stated that the U.S. Attorney was unable to
provide “any other specific information” to supplement the travel
documentation that we had provided to him for review.

       In sum, we concluded that U.S. Attorney C did not comply with the travel
regulations or show that his lodging costs which exceeded the government rate
were appropriate. The U.S. Attorney or his staff did not make an adequate
effort to determine whether the government rate was available within a
reasonable distance of his meetings. Most of the justification memoranda that
we found simply stated that the government rate was unavailable, but provided
no substantiation for this claim. In four cases, there was no justification
memorandum at all. The justification for his stay at the Four Seasons Hotel (at
a rate of $475 per night) was an early morning speech at the hotel. We do not
believe this was a suitable justification for exceeding the government rate,
particularly by such a large amount, if lodging at the government rate was
available at a hotel within a reasonable distance from that hotel.

               4.     U.S. Attorney D

       During the period of our review, U.S. Attorney D submitted 23 vouchers
that included reimbursement for lodging. Of the 23 vouchers, 9 (39 percent)
exceeded the government rate for lodging. We found insufficient justification
for exceeding the government rate with respect to six of the nine trip vouchers.
These six vouchers exceeded the government rate by $52 to $231 per night, for
a total of $903 (excluding taxes and resort fees). U.S. Attorney D exceeded the
government rate by more than $100 per night on three of the six vouchers.

      Four of the six trips we questioned were for the U.S. Attorney’s
attendance at conferences. According to the justification memoranda signed by
the U.S. Attorney’s Executive or First Assistant, actual subsistence was

example of excessive transportation costs, his car service from a London airport to his hotel in
central London cost $562 round trip.


                                               19
justified because of the “special event” exception. The special event cited was
the fact that the conference rate was “sold out.”

      The first conference was held at a particular hotel in San Diego. Yet,
instead of staying at the conference hotel for the conference rate of $159 per
night, the U.S. Attorney stayed at the U.S. Grant Hotel for $279 per night.

      The second conference was held in Fort Lauderdale, Florida. Instead of
staying at the conference hotel where his secretary had reserved a room for
$109 per night, the U.S. Attorney stayed at the Fort Lauderdale Grande Hotel
& Yacht Club for $159 per night and cancelled his reservation at the
conference hotel.

      The third conference was held at a hotel in Anaheim, California.
According to the travel documents, the conference rate was $143 per night.
Instead of staying in Anaheim, U.S. Attorney D stayed at the Island Hotel in
Newport Beach, approximately 20 miles from Anaheim, for $349 per night. The
U.S. Attorney told the OIG that he required a hotel near the conference because
he was scheduled to speak at the conference in the morning. However, he
provided no explanation to us why he did not stay at a hotel in Anaheim and
instead stayed at a hotel 20 miles away.

       The fourth conference was held at the Rancho Las Palmas Resort & Spa
in California. The U.S. Attorney stayed at the conference hotel but not at the
conference rate of $159 per night; the U.S. Attorney’s room cost $219 per
night.

      U.S. Attorney D’s secretary told us that the U.S. Attorney instructed her
to book rooms at the non-conference hotels described above. She also stated
that the U.S. Attorney told her to reserve a non-conference room at the Rancho
Las Palmas Resort & Spa in order to have a room with a better view. She said
that the U.S. Attorney told her to write that the conferences were “sold out” in
order to justify his decision to stay at a preferred hotel.

      U.S. Attorney D denied selecting the hotels for his lodging or telling his
secretary to misrepresent the reason for his excess lodging costs. He stated
that his secretary was responsible for each of the hotel rooms in excess of the
government rate and that if she said otherwise, it was to cover for her own
misconduct.

      The secretary also said that at the end of U.S. Attorney D’s tenure,
someone in the USAO told the U.S. Attorney that he should pay the difference
between the cost of lodging at his preferred hotel and the government rate.
According to the travel documentation, U.S. Attorney D attended a conference
in Palm Springs in April 2009. According to the secretary, the U.S. Attorney
told her to reserve a room for him at the Parker Hotel, which cost $325 per
night and which was not the conference hotel. In this instance U.S. Attorney D
                                       20
only sought reimbursement for the $139 government rate and paid the
difference between the government rate and the cost of his preferred hotel
himself.

       We also interviewed the U.S. Attorney’s Executive Assistant, who had
taken that position shortly before the U.S. Attorney traveled to the Palm
Springs conference and who was required to sign the U.S. Attorney’s
justification memoranda. She told us that she questioned the cost of hotel the
U.S. Attorney had selected and that the U.S. Attorney ultimately agreed to pay
the difference. In contrast, the U.S. Attorney told us that his secretary “locked
him” into a room at the expensive hotel and that he was forced to pay the
difference.

       We found similar issues with some of U.S. Attorney D’s non-conference
travel. On one trip for a press conference, U.S. Attorney D stayed at a Double
Tree Resort for $225 per night when the government rate was $141 per night.
The justification memorandum cited the “special event” exception and stated,
“the conference room daily rate is $295 per day, which exceeds the dollar
amount of the federal government daily rate of $141 per day.” We note that
there was no conference or conference rate and that the purpose of the U.S.
Attorney’s travel was to attend a press conference.

       U.S. Attorney D also stayed at the Westin Embassy Row in Washington,
D.C., for $391 per night when the government rate was $233 per night. The
justification memorandum cited the “special event” exception and stated “the
daily room rate is $391.25 which exceeds the dollar amount of the government
daily rate of $233.00.”

       We concluded that some of U.S. Attorney D’s claims for reimbursement
above the government rate were inappropriate and egregious violations of the
travel regulations. We did not find the U.S. Attorney’s attempt to cast blame
for these violations on his secretary to be credible or persuasive. His secretary
said that she would not have known to book the U.S. Attorney at the particular
hotels without his specific instructions, and that he told her to write “sold out”
to justify being reimbursed for more expensive lodgings. We do not believe that
the secretary would have taken these actions on her own initiative. Moreover,
the justification memorandum provided no acceptable rationale for the
government to reimburse the U.S. Attorney for these selections. Even if the
conference hotel was sold out, the U.S. Attorney would be required to find a
hotel at the government rate. 17



       17  In response to our draft report, EOUSA provided comments included in Appendix 1
to this report. EOUSA’s comments included questions regarding our analysis of U.S. Attorney
D’s conduct. The OIG’s analysis of EOUSA’s comments is discussed in Appendix 2.


                                            21
       We also do not believe there was adequate justification for the other
reimbursements we questioned for U.S. Attorney D. In sum, we found that
U.S. Attorney D’s claims for reimbursement above the government rate
reflected indifference to applicable FTR and DOJ travel policies.

              5.     U.S. Attorney E

      During 2007-2009, U.S. Attorney E submitted 63 vouchers that included
reimbursement for lodging. Of the 63 vouchers, 21 (33 percent) exceeded the
government rate for lodging. We found insufficient justification for 10 of the 21
vouchers that exceeded the government rate. These 10 vouchers exceeded the
government rate by $50 to $288 per night, for a total of $2,118 (excluding
taxes). The U.S. Attorney’s lodging exceeded the government rate by more than
$100 per night on three of the trips.

       Eight of the 10 questionable trips included lodging in Washington, D.C.
U.S. Attorney E told us that either her secretary or the EOUSA Attorney
General Advisory Committee (AGAC) coordinator selected her hotel when she
traveled. However, the U.S. Attorney’s secretary told us that the U.S. Attorney
selected the hotels herself, and that when she traveled to Washington, D.C.,
the U.S. Attorney required a hotel located within walking distance of her
meeting location to avoid travel by taxi cab or metro. We determined that on
six of the eight occasions when U.S. Attorney E exceeded the government rate
in Washington, D.C., she stayed at hotels that were either the site of her
meetings or within four blocks of DOJ Headquarters.

       U.S. Attorney E denied to us that she limited her hotel choices based on
their proximity to her meeting location.

      Travel records also show that on seven of the eight occasions that this
U.S. Attorney exceeded the government rate in Washington, D.C., other U.S.
Attorneys, many of whom traveled to Washington for the same meetings,
secured lodging at the government rate. 18 In fact, U.S. Attorney E was the only
U.S. Attorney to exceed the government rate on five occasions, and on two
occasions, U.S. Attorney E and U.S. Attorney B were the only two U.S.
Attorneys to exceed the government rate.

       None of U.S. Attorney E’s travel documents included justification
memoranda for her lodging that exceeded the government rate, and no
explanations were provided on the U.S. Attorney’s authorizations for these
trips.



       18 According to the travel documents we reviewed, no other U.S. Attorneys submitted
vouchers for lodging in Washington, D.C., during one of the U.S. Attorney’s visits.


                                            22
       U.S. Attorney E stated that she told her secretaries to clear all of her out-
of-district travel through the AGAC coordinator at EOUSA. U.S. Attorney E
also stated that no one in EOUSA ever addressed her lodging costs and that
she was in routine contact with the AGAC coordinator at EOUSA. However, the
secretary never requested EOUSA approval for the U.S. Attorney’s travel and no
approval from EOUSA was included in the travel documentation for the 10
trips that exceeded the government rate. The secretary also stated that she
understood that U.S. Attorney E had the authority to approve her own travel
and lodging up to 300 percent of the government rate.

      We concluded that U.S. Attorney E regularly exceeded the government
rate without adequate justification on numerous occasions, including several
occasions when other U.S. Attorneys obtained lodging at the government rate.

      C.    Other Examples of Questionable Travel

      We also identified examples of other questionable lodging
reimbursements that exceeded the government rate by several other U.S.
Attorneys, although these instances were not part of a pattern of abuse like
those described above.

            1.     Travel for Conferences

       We identified several recurring problems with the way some U.S.
Attorneys obtained reimbursement for lodging expenses at conferences where
lodging reimbursements exceeded the 300 percent cap on the government rate.
This issue arose most frequently with respect to judicial conferences.

      Thirteen U.S. Attorneys attended judicial conferences at resorts that
exceeded the government rate by more than 300 percent and received
reimbursement for the full amount. For example, in one instance, five U.S.
Attorneys attended a judicial conference held at a resort that exceeded the
government rate by more than 300 percent (excluding taxes and resort fees).
Of the five, only one U.S. Attorney limited his reimbursement to the 300
percent cap on the government rate. According to the FTR, reimbursement for
lodging is not permitted over the 300 percent cap.

       We also found that one U.S. Attorney’s office listed the lodging amount
over government rate for a judicial conference as a “miscellaneous expense.”
The FTR specifically limits reimbursement for miscellaneous expenses to
specified items, which do not include lodging. 41 CFR § 301-12.1.

       Another judicial conference was attended by six U.S. Attorneys. Five of
the U.S. Attorneys reserved “lodge rooms.” One U.S. Attorney reserved a “lodge
suite.” The U.S. Attorney who reserved the lodge suite was the second of the
six U.S. Attorneys to reserve his lodging, so lodge rooms were available when
this U.S. Attorney made his reservation. The lodge rooms were $285 for the

                                        23
first two nights and $335 for the third night. The lodge suite was $335 for the
first two nights and $405 for the third night. Although the lodge suite was
within 300 percent of the government rate of $129 per night for the first two
nights, it was not the least expensive lodging option. Furthermore, the lodge
suite exceeded 300 percent of the government rate for the third night.

       The U.S. Attorney who reserved the lodge suite told us that he thought
that the available conference rate rooms were the same price and allotted on a
first-come/first-serve basis.

       We believe that it was inappropriate for the U.S. Attorney to incur
unnecessary lodging costs by requesting a suite as opposed to a room. It
appears that, in this instance, the U.S. Attorney failed to appreciate the price
difference. However, excess costs which are unnecessary or unjustified in the
performance of official business are not reimbursable.

            2.    University Club in Washington, D.C.

       One U.S. Attorney traveled to Washington, D.C., to testify before the
Senate Judiciary Committee. According to the U.S. Attorney’s secretary and
the travel documentation, the secretary originally reserved a room at the
government rate of $154 at the Hilton Embassy Row. At the U.S. Attorney’s
request, she changed the reservation to the University Club, which cost
$189.50 per night, or $35 over the government rate. She stated that the U.S.
Attorney told her that the University Club was the closest hotel to the Senate
Building, and she included that rationale in the justification memorandum
signed by the U.S. Attorney.

      The U.S. Attorney told us that he did not recall the circumstances
surrounding the hotel reservation but stated that he often stayed at the
University Club. The U.S. Attorney said he also did not recall providing the
language for the justification memorandum.

      In fact, the University Club is not the closest hotel to the Senate Dirksen
Building, and the University Club and Hilton Embassy Row are less than a
mile apart, in downtown Washington, not near the Senate. Moreover, the U.S.
Attorney traveled to the Senate by taxi.

      A preferred hotel is not an exception to the requirement that Department
employees obtain lodging at the government rate. We found it troubling that
the U.S. Attorney cancelled a reservation at a hotel at the government rate to
stay at a hotel that did not offer the government rate.

            3.    Weekend Travel

      We found that another U.S. Attorney routinely traveled to a satellite U.S.
Attorney’s Office in his district. On three occasions he arranged his travel to
                                       24
include a weekend and received reimbursement for the weekend lodging. The
U.S. Attorney told us that at least some and possibly all of these weekend trips
coincided with his son’s baseball tournaments, which were held in the same
city as the satellite office.

      According to the travel documents, on each occasion the U.S. Attorney
scheduled meetings at the end of one week and the beginning of the following
week. In some cases the reimbursed lodging expenses exceeded the
government rate by large amounts. For example, in March 2008 the U.S.
Attorney stayed over “Easter Weekend/Spring Break.” The hotel charged $220
per night on Friday and Saturday and $189 per night on Sunday, compared to
the government rate of $70 per night.

      This U.S. Attorney asserted to us that it was cheaper to stay over the
weekend than to make two trips to visit the satellite office. We were provided
with two cost comparisons in support of this claim. One (in March 2009)
showed that it was more expensive to stay over the weekend. The second
(October 2009) purportedly showed that it was cheaper for the U.S. Attorney to
stay the weekend than to pay for two separate trips, but this comparison
omitted the cost of the hotel for two of the nights and used the government rate
rather than the actual cost of the hotel for comparison purposes. Had the
comparison been calculated accurately it would have shown that it would have
been approximately $150 cheaper to make two separate trips. In addition,
there was no explanation in the travel justification memoranda for why the
U.S. Attorney did not schedule his local meetings during the same week to
avoid a weekend stay.

     We concluded that there was no justification for the U.S. Attorney to be
reimbursed for these weekend trips.




                                       25
IV.    OIG ANALYSIS AND RECOMMENDATIONS

       We identified two systemic problems that we believe contributed to the
instances of U.S. Attorneys improperly obtaining reimbursement above the
government rate as described in this report. First, we found that deficiencies
and inconsistencies in the DOJ travel policies enabled U.S. Attorneys to
authorize their own travel, including authorizing themselves to exceed the
government rate. The policies do not describe the effort that must be made to
find lodging within the government rate or require any substantiation of the
traveler’s claim that the government rate is unavailable. Second, we found that
internal DOJ controls did not effectively ensure that U.S. Attorneys’ travel
complied with applicable travel policies.

      Recent memoranda issued by EOUSA and JMD require that EOUSA
approve certain travel by U.S. Attorneys. We believe that these memoranda
addressed some but not all of the problems we identified. Accordingly, in this
section we make several recommendations for additional improvements by the
Department regarding its travel policies.

       A.     Deficiencies in DOJ Travel Policies

      As discussed above, the DOJ Travel Supplement and the United States
Attorneys’ Manual permitted U.S. Attorneys to authorize their own travel within
the United States. 19 Based on these policies, U.S. Attorneys or their
subordinates signed the authorizations approving their own travel, including
authorizing themselves to exceed the government rate.

      This authority is generally not available to component heads within the
Department of Justice. For example, the Travel Order requires travel by
component heads to be authorized by the Deputy Attorney General or the
Associate Attorney General, depending upon to whom the component head
reports. U.S. Attorneys are considered heads of field offices for the purpose of
the Travel Order, which permits them to authorize their own in-district travel.
We believe that the U.S. Attorneys’ ability to authorize their own travel
contributed to the problems we found in this review.

     In addition, the DOJ travel policies are silent regarding what effort must
be made to find lodging within the government rate at a location near the
temporary work station before concluding that the government rate is
“unavailable.” This silence permitted the practice of some U.S. Attorneys or

       19  The Travel Supplement and the U.S. Attorneys’ Manual are inconsistent with the
DOJ Travel Order, which allows U.S. Attorneys to authorize their own in-district travel only.
With respect to out-of-district travel, according to the Travel Order U.S. Attorneys are subject
to the same requirement as other DOJ travelers – that their travel be authorized by a person in
a higher level position than the traveler.


                                              26
their staffs to call a few preferred hotels (or even just one), find that the
government rate was unavailable at these particular hotels, and declare that
the rate was “unavailable” as a justification for reimbursement of higher cost
lodging. For example, as discussed above, U.S. Attorney B’s secretary told us
she checked the Willard, the Mayflower, the Renaissance, and the J.W.
Marriott to find the government rate. Similarly another U.S. Attorney justified
a $499 per night room at the J.W. Marriott hotel in Washington, D.C., when
the government rate was $201 per night because she could not find a cheaper
room at three exclusive hotels: the Mayflower, the Willard, and the Washington
Court Hotel. The DOJ travel policies do not require that the results of an
unsuccessful effort to find the government rate be documented in the
justification memorandum. We also note that the breadth of the FTR provision
allowing travelers to exceed the government rate for undefined “mission
requirements” could lead U.S. Attorneys to believe they had wide discretion to
book lodging above the government rate.

       However, we do not believe any deficiencies in DOJ travel policies or
EOUSA’s procedures excuse the problematic patterns and abuses described in
this report. Despite these deficiencies, the large majority of U.S. Attorneys
were able to find lodging within the government rate or provided persuasive
justification for exceeding it. However, some U.S. Attorneys authorized
themselves to stay at hotels above the government rate on a regular basis, or to
stay at hotels significantly above the government rate.

      B.    Deficiencies in Internal Controls

     We also found that the DOJ internal controls that were in place did not
ensure that U.S. Attorneys were complying with applicable travel rules.

            1.    U.S. Attorneys or Their Subordinates Authorized and
                  Approved Their Travel

       Because U.S. Attorneys were permitted to authorize their own travel, U.S.
Attorneys’ travel was often reviewed solely by the U.S. Attorneys’ subordinates
in the U.S. Attorneys’ Offices. In most USAOs, the U.S. Attorney’s
subordinates prepared the travel authorization (including advance
authorization to exceed the government rate) and certified the availability of
funding. The authorization was usually signed by the U.S. Attorney or his
subordinate. Once travel was completed, a USAO employee prepared the
voucher, signed as the approving official, and signed as a certifying official. If
the U.S. Attorney exceeded the amount pre-authorized on the travel
authorization, USAO budget staff would increase the pre-authorized amount.

      Most USAO employees who prepared, approved, and certified the U.S.
Attorneys’ authorizations and vouchers told us that their review was limited. If
the U.S. Attorney’s lodging exceeded the government rate, USAO staff often
drafted a justification memoranda but did not include sufficient facts to
                                       27
adequately support the decision to exceed the government rate. For example,
many justification memoranda simply stated that the U.S. Attorneys authorized
themselves to exceed the government rate, or that there was no government
rate available, but did not provide the facts underlying this claim. With respect
to vouchers, USAO staff said that they reviewed the documents to ensure the
form was complete, the receipts were attached, and the amounts on the
receipts matched the amounts on the voucher.

       During our review, we found two USAO employees who questioned U.S.
Attorneys regarding their lodging costs. Both of these employees were in
positions that required them to sign the U.S. Attorneys’ justification
memoranda. Once questioned, both U.S. Attorneys paid the difference between
the cost of their preferred hotel and the government rate. Notably, one of the
employees, who was the U.S. Attorney’s Administrative Officer, told us that
even though she had worked for the U.S. Attorney for many years and
considered him to be a friend, confronting him was a difficult decision because
of his position. Moreover, despite the fact that this employee served as the U.S.
Attorney’s Administrative Officer for many years and had assisted the U.S.
Attorney with his hotel reservations, she did not confront the U.S. Attorney
until an office employee retired and she became the USAO staff person required
to sign the justification memoranda when the U.S. Attorney exceeded the
government rate.

      In our review, we found that USAO staff generally deferred to the U.S.
Attorney’s decision to exceed the government rate. We believe that the
structure where the U.S. Attorneys, or their subordinates, approved and
reviewed their travel did not provide effective oversight on U.S. Attorney travel.

             2.    EOUSA Review Was Ineffective

       In addition, EOUSA review of U.S. Attorney travel was also limited and
ineffective. During the period of our review, EOUSA conducted only partial and
deferential reviews of the travel authorizations for U.S. Attorneys.

       On September 22, 2003, the Director of EOUSA issued a memorandum
to all U.S. Attorneys stating that all authorizations for out-of-district travel by
U.S. Attorneys should be sent to EOUSA for review and approval.

       Yet, we determined that the scope of EOUSA’s review of U.S. Attorneys’
travel was very limited. The EOUSA Senior Advisor for Management and
Operations said that there were no written policies or procedures for his review
and that his focus was on the purpose of the travel. The Senior Advisor said
that he never rejected an authorization but that he had questioned the
appropriateness of one authorization to a foreign resort which he thought
might raise an appearance problem. The authorization was ultimately
approved.

                                         28
      This EOUSA review did not serve as an effective control on U.S.
Attorney’s lodging expenses because the review was very limited and too
deferential. To begin with, there was no mechanism to ensure that U.S.
Attorneys actually obtained EOUSA approval for travel. As a result, USAO
compliance with the requirement to submit U.S. Attorney travel authorizations
to EOUSA was voluntary and inconsistent. Many USAOs did not provide
EOUSA with all of their out-of-district travel authorizations. Moreover,
although the FTR required lodging above the government rate to be approved in
advance, the authorization documents submitted to EOUSA by U.S. Attorneys
often did not even identify the fact that the government rate would be exceeded.

      The scope of EOUSA’s review was minimal and did not ensure
compliance with applicable rules for exceeding the government rate. EOUSA
focused on the purpose of the travel and did not check to see if the lodging rate
exceeded the government rate. The EOUSA Senior Advisor told us that
although he reviewed the entire authorization, he did not “get in the weeds” or
check to see if the lodging rate exceeded the government rate because U.S.
Attorneys are presidential appointees and the United States Attorneys’ Manual
gave them the authority to approve their own lodging above the government
rate.

      Our review of e-mail exchanges between EOUSA and the USAOs
confirmed this account of limited review. The EOUSA Senior Advisor simply
replied “Approved” to the majority of e-mails. On a few occasions the EOUSA
Senior Advisor asked for an explanation of the purpose of the travel. We did
not see any e-mail questioning the U.S. Attorney’s lodging costs even when, for
example, a U.S. Attorney requested authorization for a $775 per night hotel in
New York City for two nights in December 2007 when the government rate was
$311 per night.

       Several U.S. Attorneys who we interviewed told us that they assumed
their lodging in excess of the government rate was appropriate because their
travel authorization were approved by EOUSA. However, in light of the
inconsistent and limited review of travel authorizations by EOUSA, this
procedure did not provide effective oversight.

              3.      JMD Fiscal Services Section Audits of Travel Were
                      Limited and Ineffective

       In addition, JMD’s review of U.S. Attorney travel was limited and
ineffective. JMD’s Fiscal Services Section (FSS) is the unit specifically tasked
with auditing Department travel vouchers. 20 According to the FSS Assistant

        20 The Department has several large auditing systems in place. These are not designed

specifically to review travel by Department employees, although a travel obligation may be
selected in a random sample. For example, the Department contracts with a private
                                                                                        (Cont’d.)
                                              29
Director, FSS reviews travel vouchers that meet specific criteria, such as
vouchers totaling $2,500 or more and vouchers for foreign travel. In fiscal year
2009, the FSS audited approximately 1,900 travel vouchers.

      The vast majority of the travel authorizations and vouchers we reviewed
during this investigation that exceeded the government rate for lodging were for
domestic travel and did not exceed the $2,500 threshold for FSS review.
Therefore, FSS did not review most of the U.S. Attorney lodging
reimbursements over the government rate.

       The scope of FSS review also did not necessarily address compliance with
DOJ policies, including the requirements for exceeding the government rate.
We showed the FSS Assistant Director five U.S. Attorney travel vouchers that
were over $2,500 or that were for foreign travel and therefore met the criteria
for FSS review. One involved a U.S. Attorney’s travel to Hawaii. The travel
documentation did not justify the cost of an extra night’s lodging or the
reimbursement of meals and incidental expenses for two personal days in
Hawaii. Three vouchers involved foreign travel which exceeded the government
rate, and none included a justification memorandum. In addition, one voucher
showed that the Department reimbursed a U.S. Attorney for first class travel
without proper authorization and for a gym fee, which is not a miscellaneous
expense recognized by the FTR. None of this was uncovered by the FSS review.
We question whether the FSS Audits provide effective oversight or control of
travel by U.S. Attorneys.

       C.     OIG Assessment of 2010 Policy Revisions

      In response to the recent concerns raised about excessive costs
associated with some U.S. Attorneys’ travel, EOUSA and JMD have issued two
memoranda intended to improve controls relating to U.S. Attorney travel. The
EOUSA memorandum was issued on February 25, 2010, and the JMD
memorandum was issued on July 2, 2010. These memoranda are attached as
Appendices 3 and 4 to this report.

    Pursuant to these memoranda, EOUSA has established a Travel Office to
manage U.S. Attorney travel authorizations and vouchers. According to the

accounting firm to conduct annual audits of its financial statements. However, these audits
focus on large dollar value obligations. The JMD Quality Control and Compliance Group
(QCCG) conducts annual reviews of financial transactions of the Department’s Offices, Boards,
and Divisions, which includes both EOUSA and the individual USAOs. The QCCG reviews
specific items related to premium class travel but does not conduct specific reviews of non-
premium class travel. In addition, EOUSA’s Evaluation and Review Staff (EARS) conducts on-
site reviews of USAOs every 3 years. However, because of the limited amount of travel by
USAO employees, it is rare that a U.S. Attorney’s travel voucher would be selected for an EARS
review. For example, in FY 2007-2009, EARS reviewed only 20 (.004 percent) of the
approximately 5,000 travel vouchers of U.S. Attorneys.


                                             30
EOUSA memorandum, the new procedures were established to: (1) ensure full
compliance with Departmental travel policies and procedures, (2) strengthen
internal controls and oversight of United States Attorneys’ travel, and (3)
maintain the integrity and reputation of the position of United States Attorney.

       Under the EOUSA and JMD memoranda, all U.S. Attorneys’ travel
authorizations and vouchers for out-of-district travel must be submitted to the
EOUSA for approval. The EOUSA memorandum also requires U.S. Attorneys to
submit authorizations for in-district travel if it involves lodging above the
government rate or premium class travel. 21 However, the EOUSA
memorandum allows all U.S. Attorneys’ in-district travel authorizations for
travel at the government rate and all in-district vouchers regardless of the
lodging rate to be approved by the USAO. According to the EOUSA
memorandum, the EOUSA Travel Office will review a sample of U.S. Attorneys’
travel authorizations and vouchers every 6 months for compliance with the new
procedures.

       According to EOUSA’s Chief Financial Officer, the Travel Office is being
staffed with reviewers with expertise in federal travel regulations. EOUSA’s
Chief Financial Officer told us that EOUSA may develop a written checklist for
the reviewers and that it would maintain copies of any correspondence with
USAOs. She said that the Travel Office will review travel authorizations; certify
that they comply with Department policies; and then send them to the EOUSA
Director, Deputy Director for Administration and Management, or Chief of Staff
for approval. The Travel Office will also review the out-of-district vouchers to
ensure that the expenses were pre-authorized and comply with Department
policies. Once approved, EOUSA will process the out-of district travel vouchers
for payment.

       We believe that if enforced, these policy revisions can improve oversight
of travel by U.S. Attorneys, primarily by providing a comprehensive review and
approval of most travel authorizations that was largely absent during the
period of our review. However, we have several concerns about the new
procedures. First, we note that EOUSA previously attempted to provide
independent oversight in 2003, when it issued a memorandum requiring that
certain U.S. Attorney travel authorizations be submitted to EOUSA for
approval. As discussed above, this previous set of review procedures did not
provide effective oversight or prevent any of the egregious instances of travel
over the government rate described in this report. The EOUSA review under
the new policies must be far more rigorous and greater in scope than in the
past.


      21   As discussed below, the recent JMD memorandum requires that the EOUSA Director
(or his designee) approve U.S. Attorney Travel without distinguishing the U.S. Attorneys’
authority to approve their own in-district travel.


                                           31
       Second, the current documentation requirements still do not require that
U.S. Attorneys provide the information necessary for EOUSA to assess whether
lodging above the government rate is justified under the FTR or DOJ travel
policies. In particular, the current policies do not identify the effort that must
be made to find the government rate and do not require any written
substantiation that the rate was not available at any location reasonably close
to the temporary duty station. Without this information, EOUSA will have
limited ability to ensure that a U.S. Attorney’s claim that the government rate
was “unavailable” for a particular trip was in fact accurate.

       D.     Recommendations

       The OIG makes the following recommendations to the Department
relating to its travel policies and practices

              1.      Revise DOJ Travel Policies To Make Them Consistent
                      Regarding Who Must Authorize U.S. Attorney Travel

       As detailed above, the policy revisions contained in the 2010 EOUSA
memorandum require that authorizations for all out-of-district travel and any
in-district travel involving “actual subsistence” or premium travel be submitted
to EOUSA for approval. Other DOJ travel policies continue to provide
inconsistent guidance, however. The DOJ Travel Order, which a JMD official
described as the highest authority on DOJ travel policy, continues to state that
U.S. Attorneys may approve their own in-district travel, without regard to
whether such travel involves premium travel or exceeding the government rate.
This is inconsistent with the 2010 JMD and EOUSA memoranda. Therefore,
we recommend that the Department modify the Travel Order to identify the
position of persons who must authorize U.S. Attorney Travel (including in-
district, out-of-district, and foreign travel). 22 In addition, JMD should conform
its policies to the Travel Order, and EOUSA should make conforming changes
to the U.S. Attorneys’ Manual.

              2.      Provide Guidance Regarding the Actions Required To
                      Find the Government Rate

      As discussed above, some U.S. Attorneys or their staffs would declare
that the government rate was “unavailable” after determining that the rate was
unavailable at one particular preferred hotel or at a small number of preferred
hotels. Current policies do not explicitly prohibit this practice or describe the

       22  Moreover, under the Travel Order all out-of-district travel by U.S. Attorneys must be
approved by someone in a “higher level position than the traveler.” Although the 2010 JMD
and EOUSA memoranda assign this function to the Director of EOUSA, it is not clear that the
Director is in a higher level position than any U.S. Attorney. The Department should revise the
Travel Order to clarify this question as well.


                                              32
effort required by DOJ travelers to find the government rate. We recommend
that the Department issue guidance describing the effort required by travelers
to find the government rate before declaring that such rate is “unavailable.” 23

              3.     Strengthen Requirement To Document Justifications for
                     Exceeding the Government Rate

       To ensure compliance with DOJ travel policies and allow appropriate
reviews of DOJ travel, including U.S. Attorney travel, we recommend that the
Department require that justification memoranda sufficiently document the
facts that support a decision to exceed the government rate. The justification
memorandum for any travel involving lodging above the government rate
should provide sufficient detail to establish that the applicable exception to the
government rate has been satisfied. In cases in which the traveler claims the
government rate is unavailable, the justification memorandum should be
required to describe the efforts made to locate lodging at the government rate
within a reasonable distance of the duty station rather than simply declaring
that it was unavailable. For example, a printout of search results from one of
the on-line search sites may be sufficient documentation of an unsuccessful
effort to find the government rate.

              4.     Simplify Structure of DOJ Travel Policies

       We recommend that JMD consider reviewing and conforming its
structure of policies and guidance relating to DOJ travel. We believe that the
existing multilayered approach has generated inconsistencies among the
various authorities governing DOJ travel, and we are concerned that there are
additional inconsistencies in other parts of the policies that we did not review
during this investigation. We believe that the JMD should review DOJ travel
policies for consistency and simplicity, and make appropriate changes. In
addition, the Department should also revise the U.S. Attorneys’ Manual to
ensure conformity and eliminate confusion.




       23  We note that cwtsatotravel.com and fedrooms.com provide an on-line method to
search for hotels in a particular destination that offer the government rate. However, users
must cross check the listed government lodging rate with the GSA lodging rate because what is
labeled the government rate on the websites is not always the GSA rate.


                                             33
V.    CONCLUSION

      We found that, although many U.S. Attorneys traveled frequently during
the period of our review (2007-2009), the large majority of them rarely or never
sought reimbursement above the government rate for lodging. However, we
found that some U.S. Attorneys repeatedly authorized their own lodging at
hotels charging more than the government rate, without documenting that the
rate was actually unavailable at another hotel near their temporary duty
station. We identified five U.S. Attorneys who exhibited noteworthy patterns of
improperly exceeding the government rate, and we identified other troubling
incidents of U.S. Attorneys seeking reimbursement for lodging above the
government rate without justification.

      In total, during the period of our review, U.S. Attorneys claimed
reimbursement for lodging above the government rate for 20 percent of their
overnight travel. While we cannot say with certainty the exact percentage of
Department travel that exceeds the government rate for lodging, we believe it is
much less than the 20 percent that U.S. Attorney travel exceeded the
government rate.

       Finally, we believe that, to some extent, deficiencies in DOJ travel
policies and in internal DOJ controls contributed to the improper lodging
reimbursements described in this report. In particular, U.S. Attorneys were
permitted to authorize their own travel and approve their own travel expenses,
which we believe contributed to some exceeding the government rate without
adequate justification. Moreover, internal controls within the Department
provided ineffective oversight of U.S. Attorney travel.

       In 2010, JMD and EOUSA issued memoranda intended to correct these
problems. However, in this report we make several recommendations for
additional action by the Department to improve its travel practices and
controls, which we believe would help prevent recurrences of the inappropriate
travel practices by some U.S. Attorneys that are described in this report.




                                       34
APPENDIX 1
                                                             U.S. Department of Justice

                                                             Executive Office ror United States Attorneys


 Office of the DLrector                                      Room 226 1. RFK Mo m Jllstlce B/l ddmg   (202) 2$2· 1300
                                                             950 Penlls)'/l'omo Avenue, Nit'
                                                             Washington, DC 20530

OCT U201D
 MEMORANDUM

 TO:                      Glenn A. Fine



            -41tj~ ?J~
 FROM :                   H. Marshall Jarrett
                          Director

 SUBJECT:                 Response to Draft Report on OIG Review of United States Attorney Travel that
                          Exceeded the Government Lodging Rate

         Si nce the commencement of this review, the Executive Office for United States Attorneys
 (EOUSA) has developed travel policies and procedures that have substanti ally improved controls
 over United States Attorney travel. On March I , 20 I 0, EOUSA began reviewing and approving
 all authorizations and vouchers for out-of-district United States Attorney travel and have staffed
 a dedicated Travel Unit. In addition, we are auditing all within-district travel conducted by
 Uni ted States Attorneys. As a result, controls over the United States Attorney travel approval
 process have significantl y improved.

          Prior to March 1,20 10, when Un ited States Attorneys planned travel, the associated
 authori zations were self-approved and not subject to a higher level of review or authorization.
 Under EOUSA's updated procedures, United States Attorney authorizations and vouchers are
 reviewed separately against Federal Travel Regulation requirements before being forwarded to
 me for approval. I have delegated this approval authority to EOUSA's Principal Deputy Director
 and EOUSA's Deputy Director for Admi ni st rati on and Management. The review conducted
 prior to approva l includes an evaluati on of the purpose and description of travel and any requests
 for actual subsistence or premium class accommodations made by United States Attorneys for in­
 district and out-of-distri ct travel. Travel requests lacking adequate justifications or support are
 now denied.

         Eleven specific instances of travel noncompliance were identified in the report for five
 unnamed Uni ted States Attorneys . We were ab le to confi rm the accuracy for six instances, but
 question some of the OIG ' s clarity for two examples (both noted for U.S. Attorney D). We did
 not confirm the summary numbers provided for each United States Attorney or the accuracy of
 the 0 IG' s numbers on all U.S. Attorneys.
                                                 -2-

        In two instances noted by the OIG for U.S. Attorney D (for identified travel to Fort
Lauderdale, FL, and San Diego, CA), the OIG did not specifically address why sold out
conference room rates are not acceptable reasons for incurring actual subsistence at alternate
hotels. For the Fort Lauderdale example, the report also does not address information that the
rate provided at the conference location was already higher than the government rate ($129
conference hotel rate; $109 government rate; $159 paid at alternate hotel).

         As indicated in OIG Recommendation No. I, EOUSA travel policies related to the
authorization of United States Attorney travel involving actual subsistence or premium class
accommodations are now more restrictive than those of the Department. With the September 30,
20 I 0 announcement of the implementation of electronic travel throughout the Department, we
are now working directly with the Justice Management Division to ensure that our business
processes related to travel remain in compliance with Department policies and procedures.
EOUSA and the United States Attorneys' offices will be the first Department components to
implement the new automated travel management system. The automated routing of United
States Attorney travel authorizations and vouchers directly to EOUSA will further strengthen
controls over the travel approval process.

        The preparation and dissemination of periodic travel policies and guidance on issues
encountered in the United States Attorney travel approval process has been a developing feature
of our travel management oversight since March 1,2010. Since the commencement of this
review, the United States Attorneys' Manual (USAM) section referencing travel has been
removed while policies are being developed. This section of the USAM will be reissued within
the next two weeks to reflect our updated policies. Upon the implementation of the automated
travel management system, the USAM section on travel will include a quick and ready reference
for United States Attorneys conducting within-district travel, out-of-district travel, foreign travel
and local travel.

       Thank you again for the opportunity to provide comments to your draft report.
APPENDIX 2
         APPENDIX 2: OIG ANALYSIS OF THE EXECUTIVE OFFICE 

             FOR UNITED STATES ATTORNEYS’ RESPONSE




       The Office of the Inspector General (OIG) provided a draft of this report to
the Executive Office for United States Attorneys (EOUSA) and the Justice
Management Division (JMD). EOUSA’s response is included in Appendix 1 to
this report. Below is the OIG’s analysis of EOUSA’s response, and the actions
we are requesting from JMD and EOUSA in response to our recommendations.

       Summary of EOUSA Comment. EOUSA’s response stated that
beginning on March 1, 2010, EOUSA had implemented new policies and
procedures “that have substantially improved controls” over United States
Attorney (U.S. Attorney) travel. EOUSA stated that the 2010 policies improved
controls over the U.S. Attorney travel approval process by establishing a
dedicated Travel Unit to review and approve out-of-district travel and to audit
in-district travel by U.S. Attorneys. EOUSA also cited the Department’s
implementation of an electronic travel management system as an additional
control over the travel approval process.

       EOUSA’s response acknowledged that prior to March 1, 2010, U.S.
Attorney travel was self-approved and not subject to a higher level of review.
EOUSA stated that pursuant to the 2010 policies, out-of-district travel by U.S.
Attorneys will be reviewed by EOUSA Travel Unit staff and approved by either
EOUSA’s Principal Deputy Director or Deputy Director for Administration and
Management. EOUSA stated that the review prior to approval includes an
evaluation of any requests for U.S. Attorney travel involving actual subsistence
or premium class travel. EOUSA also stated that it is revising the travel
section of the United States Attorney’s Manual to conform it to EOUSA’s new
policies.

      In addition, EOUSA’s response “question[ed] some of the OIG’s clarity for
two examples (both noted for U.S. Attorney D),” which related to U.S. Attorney
D’s lodging in Fort Lauderdale and San Diego. Specifically, EOUSA’s response
questioned why “sold-out” conferences do not justify actual subsistence at an
alternate hotel and why the OIG report did not address the fact that the Fort
Lauderdale conference hotel rate was higher than the government rate.

       OIG Analysis. EOUSA’s response suggests that the problems identified
in our report have been addressed by EOUSA’s 2010 policies. We do not
believe EOUSA’s 2010 policies alone will solve the problems our report
identified. In Section IV.C. of our report, we described two major concerns
regarding the 2010 policies. First, we noted that EOUSA’s previous attempt to
provide independent oversight over U.S. Attorney Travel in 2003 was
ineffective, and that we believe the EOUSA review under the new policies must
                                        1

be far more rigorous and greater in scope than in the past. Second, we noted
that current policies still do not identify the steps that travelers must take to
attempt to find a hotel room at the government rate before determining that
one is not available, and the 2010 policies do not require any written
substantiation that the government rate was not available. 1

        In addition, in Section IV.D of the report, we recommended revising DOJ
travel policies to make them simpler, more consistent, and more effective. The
first recommendation was for the Department to clarify its travel policies to
address the inconsistency between EOUSA’s 2010 travel policy and the DOJ
Travel Order, which continues to state that U.S. Attorneys may approve their
own in-district travel and which is unclear regarding who has the requisite
authority to approve out-of-district travel by U.S. Attorneys. We believe these
clarifications will also encourage EOUSA to apply a more searching and
rigorous review of requests by U.S. Attorneys to exceed the government rate.

       EOUSA also questioned the “clarity” of our findings regarding U.S.
Attorney D’s lodging in Fort Lauderdale and San Diego and stated that the OIG
report did not address why sold out conference room rates did not justify
actual subsistence at alternative hotels for U.S. Attorney D. However, as noted
in the report, Department employees are required to find a hotel room at the
government rate unless one of the exceptions discussed in Section II.B applies.
There is no exception for when an employee stays at a non-conference hotel
because the conference rate rooms at the conference hotel are sold out. Thus,
even if the conference hotel was sold out, the employee should justify why the
non-conference hotel he chose that was above the government rate was
appropriate, as opposed to a non-conference hotel at the government rate. In
Attorney D’s case there was no such justification.

      With regard to the conference in Fort Lauderdale, we found that U.S.
Attorney D had in fact secured a room at the conference hotel ($109 per night).
However, he then cancelled the reservation in order to stay at an alternate
hotel at a higher rate ($159). The fact that the conference rooms later sold out
was irrelevant and did not justify his decision to cancel his reservation and
stay at a different hotel at a higher rate. We also found that U.S. Attorney D’s
actions in this matter were consistent with his pattern, described in detail in
our report, of justifying his lodging above the government rate by making
unsupported claims that the government rate was “sold out.”

      EOUSA’s response also stated that OIG failed to address the fact that the
conference room rate at the Fort Lauderdale hotel ($129) was above the

       1  The effectiveness of EOUSA’s review of the in-district authorizations will also depend
on the authorizations correctly identifying that the traveler was seeking approval for actual
subsistence. This will require additional training and monitoring, since we found the majority
of authorizations sent to EOUSA pursuant to the 2003 memorandum failed to correctly identify
that the traveler’s lodging was above the government rate.

                                               2

government rate for Fort Lauderdale ($107). Again, as noted above, this point
was not relevant to the issue with U.S. Attorney D’s actions. Conference rates
are generally above the government rate, which is why there is a conferences
exception to the requirement that Department employees obtain a hotel at the
government rate. EOUSA’s response ignores the fact that the cost of the hotel
that U.S. Attorney D chose in Fort Lauderdale ($159) exceeded the government
rate ($107), his reserved room at the conference hotel ($109), and the
conference room rate at the conference hotel ($129). In addition, U.S. Attorney
D provided no justification for why he did not determine whether there were
other hotels in Fort Lauderdale that were available at the government rate.

       With respect to the San Diego conference, the conference rate rooms
were sold out when U.S. Attorney D’s secretary called for a reservation.
However, U.S. Attorney D directed his secretary to reserve him a room at a
non-conference hotel far above the government rate (the U.S. Grant Hotel at
$279 per night), despite the fact that his secretary found a room at another
non-conference hotel at the government rate (a Marriott hotel at $139 per
night), one block from the conference. U.S. Attorney D told his secretary that
he preferred to stay at the U.S. Grant Hotel and declined to stay at the Marriot
at the government rate.

      Finally, the OIG report contained the following four recommendations to
the Department:

         •	 Revise DOJ travel policies to make them consistent regarding who
            must authorize U.S. Attorney travel.
         •	 Provide guidance regarding the actions required to find the
            government rate.
         •	 Strengthen requirement to document justifications for exceeding
            the government rate.
         •	 Simplify structure of DOJ travel policies.

       We believe that these recommendations are essential to effective
oversight of Department travel. Ensuring that travel authorizations are routed
to individuals with the requisite approval authority is one aspect of effective
oversight. Another important aspect is providing both the travelers and the
reviewers with clear and concise standards to apply when evaluating whether a
request for actual subsistence is appropriate.

      Our four recommendations require action by both JMD and EOUSA. We
are therefore requesting that, within 30 days, JMD and EOUSA provide
responses stating whether they agree with each recommendation, and identify
the specific actions that JMD and EOUSA intend to take in response to each
recommendation.


                                       3

APPENDIX 3
                                                               U.S. Department of Justice

                                                               Executive Office for United States Attorneys



Office of the Director                                         Room 2261, RFK Main Justice Building    (202) 514-2/21
                                                               950 Pennsylvania Avenue, NW
                                                               Washing/on, DC 20530

                                                                   FEB 2'·5 2010

TO:                      ALL UNITED STATES ATTORNEYS
                         ALL FIRST ASSISTANT UNITED STA TES ATTORNEYS
                         A~r ADMINISTRATIVE OFFICERS



FROM;
                         I~ M:~a~1
                         H,
                             -fl1a~vtlf
                                      Jarrett
                                                                   :!/--
                                                     g-- eVVl--<' ..
                         Director

SUBJECT:                 Updated Procedures for the Approval of United States Attorneys' Travel
                         Authorizations and Vouchers

ACTION:                  Implement the new United States Attorneys' travel procedures in accordance with
                         the attached instructions for all United States Attorneys' travel authorizations
                         prepared on or after March 1, 2010,


CONTACT PERSON:                         Lisa A. Bevels
                                        Chief Financial Officer
                                        email: Lisa.Bevels@usdoj.gov
                                        Phone: 202-514-1035

                                       Andrew Katsaros
                                       Assistant Director, Audit and Review Staff
                                       email: Andrew.Katsaros@usdoj.gov
                                       Phone: 202-305-3302

       The purpose of this memorandum is to notify the United States Attorneys' Offices of new
procedures that are required for the approval of United States Attorneys' travel authorizations
and vouchers. These new procedures are being established to:

           (1) ensure full compliance with Departmental travel polices and procedures,
           (2) strengthen internal controls and oversight of United States Attorneys' travel through a
           user friendly and expeditious process, and
           (3) ensure the integrity and reputation of the position of United States Attorney is
           preserved and maintained.

       An EOUSA Travel Unit will manage travel authorizations and vouchers associated with
United States Attorneys' travel. Below is a summary of the significant changes:
                                               -2-


       1.     Travel authorizations for all United States Attorneys' travel outside of his or her
              district, including foreign travel, must be submitted to the USAEO-USAtty
              Travel mailbox for approval by either the Director, EOUSA or the Deputy
              Director for Administration and Management. Authorizations will be uploaded
              into FMIS by EOUSA rather than by the districts.

       2.     Travel vouchers associated with all United States Attorneys' travel outside of his
              or her district must also be submitted to the USAEO-USAtty Travel mailbox for
              approval by either the Director, EOUSA or the Deputy Director for
              Administration and Management. Vouchers will be uploaded into FMIS and
              payments will be processed by EOUSA rather than by the districts.

       3.      Travel authorizations for all United States Attorneys' travel within his or her
               district requiring actual subsistence expenses must be submitted to the USAEO­
               USAtty Travel mailbox for approval by either the Director, EOUSA or the
               Deputy Director for Administration and Management.

       4.     Authorizations for United States Attorneys' travel within districts approved by the
              United States Attorney must be submitted to the USAEO-USAtty Within
              District mailbox in advance of travel to comply with DO] oversight requirements.

       5.     All United States Attorneys' travel authorizations, for within and outside of
              district travel, must include a YREGDOC referencing "USA" as the first three
              characters of the document control number (DCN).

       6.     Every six months, the EOUSA Travel Unit will select a sample of United States
              Attorneys' travel authorizations and vouchers processed in the financial
              management system to determine if districts are complying with the procedures
              outlined herein. Once this audit is completed, a report outlining findings and
              providing recommendations will be prepared and submitted to the Director,
              EOUSA and the Deputy Director for Administration and Management.

        The following procedures related to United States Attorneys' travel have not changed and
will remain in effect:

       7.     All requests for premium class travel (PCT) accommodations will continue to be
              approved by EOUSA. However, when PCT accommodations are required for
              United States Attorneys' travel, the request and associated justification must be
              sent to the USAEO-USAtty Travel mailbox for approval by either the Director,
              EOUSA or the Deputy Director for Administration and Management.




                                                                                                    •
                                               -3-

       8.     Travel authorizations for all United States Attorneys' travel within his or her
              district not requiring actual subsistence or PCT accommodations will continue to
              be authorized (and signed) by the United States Attorney.

       9.     Travel vouchers associated with all United States Attorneys' travel within his or
              her district will continue to be approved and paid by district personnel with
              delegated authority. Delegated authority to approve travel vouchers for a United
              States Attorney may, for example, be provided to a district's Administrative
              Officer or Division Chief. This delegated authority must be evidenced by the use
              of a properly completed Form OBD- 234, Accountable Officer Signature Form,
              on file with the Justice Management Division's Finance Staff. The United States
              Attorney is still not authorized to approve his or her own travel voucher.

       Detailed procedures for the approval of United States Attorneys' travel authorizations
and vouchers are included in the attachment. These new procedures will become effective for all
United States Attorneys' travel authorizations prepared on or after March 1,2010.

Attachment

cc: All United States Attorneys' Secretaries
   Procedures for the Approval of United States Attorneys'
            Travel Authorizations and Vouchers
BACKGROUND
In order to address some recent concerns related to the United States Attorneys' travel
authorization and vouchering process, the following new procedures have been implemented.

The objectives of these procedures are to:
       (1) ensure full compliance with Departmental travel polices and procedures,
       (2) strengthen internal controls and oversight of United States Attorneys' travel through a
       user friendly and expeditious process, and
       (3) ensure the integrity and reputation of the position of United States Attorney is
       preserved and maintained.


PROCEDURES
There are two primary types of United States Attorneys' travel. The two types are:
       (1) within district travel and
       (2) outside of district travel.

The procedures outlining the approval process for each type of travel are outlined below. These
procedures are to be used for employees serving in the position of United States Attorney,
regardless of appointment type. These procedures will be formalized as United States Attorneys'
Procedures (USAP).

A. Within District Travel
      United States Attorneys may approve their own travel authorizations, but only for travel
      within their own districts, except if premium class travel accommodations and/or actual
      subsistence are required. Within district travel requiring premium class travel
      accommodations and/or actual subsistence must be approved by the Director, EOUSA or
      the Deputy Director for Administration and Management. If the within district travel is to
      be reimbursed by a non-Federal source, offices must receive approval from EOUSA's
      General Counsel's Office (GCO) (see
      http://www.usa.doj.gov/staffs/lclNonfederaltravel.htm). Documentation evidencing the
      submission of a request to GCO for approval must be emailed along with travel
      authorization when submitted to EOUSA in accordance with the instructions outlined
      below.

       A. 1. Within District Travel- No Premium Class Travel Accommodations and/or
       Actual Subsistence Required
       A.I. a.) Travel Authorizations. All within district travel authorizations that do NOT
       require premium class travel and/or actual subsistence, may be approved by the United
States Attorney.

Please note that although districts are able to process these authorizations "in-house,"
offices are now required to adhere to a specific DCN (Document Control Number) coding
convention when assigning the Y-REG-DOC for ALL United States Attorney travel,
including within district travel authorized by the United States Attorney. This convention
requires the first three letters of the DCN to be "USA". For example, a Y-REG-DOC
used by the Southern District of New York for travel by their United States Attorney
travel would be:

                                 J-S4-USAOOOl 

 (where J is for FY2010; 54 is SDNY's district number; USAOOOI is the DCN) 


Also note that offices must submit United States Attorneys' travel (llIthoriz(ltions that
have been approved and signed by themselves, along with any requisite supplemental
information to the USAEO-USAtty Within District mailbox in advance of travel. It is
imperative that only travel authorizations, not vouchers, approved by the United States
Attorney for hislher within district travel be sent to this mailbox.

A. 1. b.) Travel Vouchers. All claims for travel reimbursement associated with within
district travel approved by the United States Attorney may be approved by district
personnel who have been delegated authority to approve travel payment vouchers. Each
USAO may have multiple travel approving officials, as long as they are in senior
positions, have authority within the component for financial matters (includes having a
current OBD-234), possess the requisite travel knowledge, and have direct access to the
Director, EOUSA; the Deputy Director for Administration and Management; the Chief
Financial Officer or other senior official for consultation.

A. 2. Within District Travel - Premium Class and/or Actual Subsistence
A. 2. a.) Travel Authorizations. All within district travel authorizations requiring
premium class travel and/or actual subsistence must be submitted, along with a written
justification substantiating the need for premium class accommodations and/or actual
subsistence expenses to the USAEO-USAtty Travel mailbox at least five (5) business
days in advance of the planned departure date. Offices should use the travel application
within FMISPC2 to generate the travel authorization. When generating the authorization,
offices should use their TABSEG, not EOUSA's TABSEG.

In addition, offices are now required to adhere to a specific DCN (Document Control
Number) coding convention when assigning the Y-REG-DOC for ALL United States
Attorney travel. This convention requires the first three letters of the DCN to be "USA".
For example, a Y-REG-DOC used by the Southern District of New York for travel by
their United States Attorney travel would be:




                                        2
                                        J-S4-USAOOOl
        (where J is for FY2010; 54 is SDNY's district number; USAOOOI is the DCN)

       When transmitting within district, travel authorizations via FMISPC2, offices must insert
       "WITHIN -" at the beginning of the pre-populated "Subject" line of the email. For
       instance,

              Pre-populated Subject line:
              Travel Authorization - Joe Smith - 0112712010 - A027L4635 - $2605
              Modified Subject line:
              WITHIN - Travel Authorization - Joe Smith - 0112712010 - A027L4635 - $2605

       EOUSA will review the travel authorization and supplemental information. If there are
       questions concerning the authorization package, EOUSA will contact the sender. Once
       the authorization is compliant with the applicable travel regulations, EOUSA will
       approve the authorization, notify the sender via the USAEO-USAtty Travel mailbox,
       and upload the authorization in FMIS on or before the first day of travel.

       A. 2. b.) Travel Vouchers. All claims for travel reimbursement associated with within
       district travel requiring premium class travel and/or actual subsistence must be approved
       by the Director, EOUSA or the Deputy Director for Administration and Management.
       Offices should use the travel application within FMISPC2 to generate the travel voucher.
       When preparing the voucher, offices must enter a ./ in the "Payment Notification" box
       and enter the United States Attorney's email address. This will ensure that the United
       States Attorney is notified via an email that the claim for reimbursement has been
       processed.

       EOUSA will review the voucher package in conjunction with the corresponding
       authorization. If there are questions concerning the voucher package, EOUSA will
       contact the sender. Once the voucher is compliant with the applicable travel regulations,
       EOUSA will approve the voucher, upload it in FMIS, and process the reimbursement
       within five (5) business days.

B. Outside of District Travel
      The Director, EOUSA or the Deputy Director for Administration and Management must
      authorize all United States Attorney travel outside of their districts. This includes both
      domestic and foreign travel. If the out of district travel is to be reimbursed by a non­
      Federal source, offices must receive approval from EOUSA's General Counsel's Office
      (GCO) (see http://www.usa.doj.gov/staffs/lclNonfederaltravel.htm). Documentation
      evidencing the submission of a request to GCO for approval must be emailed along with
      travel authorization when submitted to EOUSA in accordance with the instructions
      outlined below. Offices should use the travel application within FMISPC2 to generate the
      travel authorization. When generating the authorization, offices should use their
      TABSEG, not EOUSA's.

                                                3
In addition, offices are now required to adhere to a specific DCN (Document Control
Number) coding convention when assigning the Y-REG-DOC for ALL United States
Attorney travel. This convention requires the first three letters of the DCN to be "USA".
For example, a Y-REG-DOC used by the Southern District of New York for travel by
their United States Attorney travel would be:

                                 J-S4-USAOOOI 

 (where J is for FY2010; 54 is SDNY's district number; USAOOOI is the DCN) 


All outside of district travel authorizations and supplemental documentation must be
submitted to the USAEO-USAtty Travel mailbox in accordance with the requirements
outlined below:

B. 1. Domestic Travel
B.l. a) Travel Authorizations. All outside of district, domestic travel authorizations
must be submitted at least five (5) business days in advance of the planned departure date,
except if the travel is to be reimbursed by a non-Federal source (including in-kind
reimbursement) or if the travel is to attend an EOUSA or OLE sponsored conference,
meeting, or training course or event. In these instances, the authorizations must be
submitted at least ten (10) business days in advance of the planned departure date.

When transmitting outside of district, domestic travel authorizations via FMISPC2,
offices must insert "DOM - " at the beginning of the pre-populated "Subject" line of the
email. For instance,

       Pre-populated Subject line:
       Travel Authorization - Joe Smith - 01/27/2010 - A027L4635 - $2605
       Modified Subject line:
       DOM - Travel Authorization - Joe Smith - 0112712010 - A027L4635 - $2605

EOUSA will review the travel authorization and supplemental information. If there are
questions concerning the authorization package, EOUSA will contact the sender. Once
the authorization is compliant with the applicable travel regulations, EOUSA will
approve the authorization, notify the sender via the USAEO-USAtty Travel mailbox,
and upload the authorization in FMIS on or before the first day of travel.

B.l b.) Travel Vouchers. All claims for travel reimbursement associated with domestic
travel must be approved by the Director, EOUSA or Deputy Director for Administration
and Management. Offices should use the travel application within FMISPC2 to generate
the travel voucher. When preparing the voucher, offices must enter a ./ in the "Payment
Notification" box and enter the United States Attorney's email address. This will ensure
that the United States Attorney is notified via an email that the claim for reimbursement
has been processed.


                                         4
The FMISPC2 voucher, as well as a PDF file ofthe travel authorization signed by the
United States Attorney as the requestor, the voucher signed by the United States Attorney
as the traveler, and other requisite documentation (i.e., receipts), must be submitted
electronically to the USAEO-USAtty Travel mailbox within five (5) business days of the
last day of travel.

EOUSA will review the voucher package in conjunction with the corresponding
authorization. If there are questions concerning the voucher package, EOUSA will
contact the sender. Once the voucher is compliant with the applicable travel regulations,
EOUSA will approve the voucher, upload it in FMIS, and process the reimbursement
within five (5) business days.

B. 2. Foreign Travel
B. 2. i!J. Travel Authori~(lti9ns. All foreign travel authorizations must be submitted to
the USAEO-USAtty Travel mailbox at least fifteen (15) business days in advance of the
planned departure date. When transmitting foreign travel authorizations via FMISPC2,
offices must insert "FOR -" at the beginning of the pre-populated "Subject" line of the
email. For instance,

       Pre-populated Subject line:
       Travel Authorization - Joe Smith - 01127/2010 - A027L4635 - $2605
       Modified Subject line:
       FOR - Travel Authorization - Joe Smith - 01127/2010 - A027L4635 - $2605

Additional documentation requirements specifically related to foreign travel must also be
submitted with the travel authorization. For a complete listing of these requirements,
please see USAP 3-8.300.002, Foreign Travel Authorization.

EOUSA will review the travel authorization and supplemental information. If there are
questions concerning the authorization package, EOUSA will contact the sender. Once
the authorization is compliant with the applicable travel regulations, EOUSA will
approve the authorization, notify the sender via the USAEO-USAtty Travel mailbox,
and upload the authorization in FMIS on or before the first day of travel.

B. 2. b.) Travel Vouchers. All claims for travel reimbursement associated with foreign
travel must be approved the Director, EOUSA or the Deputy Director for Administration
and Management. Offices should use the travel application within FMISPC2 to generate
the travel voucher. When preparing the voucher, offices must enter a ./ in the "Payment
Notification" box and enter the United States Attorney's email address. This will ensure
that the United States Attorney is notified via an email that the claim for reimbursement
has been processed.

The FMISPC2 voucher, as well as a PDF file of the travel authorization signed by the
United States Attorney as the requestor, the voucher signed by the United States Attorney

                                        5

       as the traveler, and other requisite documentation (i.e., receipts), must be submitted
       electronically to the USAEO-USAtty Travel mailbox within five (5) business days of the
       last day of travel.

       EOUSA will review the voucher package in conjunction with the corresponding
       authorization. Ifthere are questions concerning the voucher package, EOUSA will
       contact the sender. Once the voucher is compliant with the applicable travel regulations,
       EOUSA will approve the voucher, upload it in FMIS, and process the reimbursement
       within five (5) business days.

C. EOUSA Travel Unit Oversight
     Every six months, the EOUSA Travel Unit will select a sample of ALL United States
     Attorneys' travel authorizations and vouchers processed in the financial management
     system to determine if districts are complying with the procedures outlined herein. Once
     this audit is completed, a report outlining findings and providing recommendations will
     be prepared and submitted to the Director, EOUSA and the Deputy Director for
     Administration and Management.


RESOURCES
    Federal Travel Regulations

       DOJ Order 2110.11H- Department of Justice Travel Regulations

       FMISPC2 Instructions: 

            Preparing Travel Authorizations 

            Preparing Travel Vouchers 


       JMD Policies and Procedures

       Financial Management USAPs




                                               6

APPENDIX 4
                                                     U.S. Department of Justice           1



 JUL   - 2 2010                                      Ubhinglm D C.2M30




MEMORANDUM FOR H. MARSHALL JARRETT
               DIRECTOR
               EXECUTIVE OFFICE FOR UNITED STATES ATTORNEYS

FROM:                    Lee J. Lofthus
                         Assistant Attorney Ge
                          for Administration

SUBJECT:                 Clarification of Delegations and Authorities Associated with the
                         Approval of United States Attorney Travel Authorization and Vouchers

This is in response to your request that I provide guidance on your interpretation of DOJ Order
2200.1 IH, Department of Justice Travel Regulations, which states that all travel must be
authorized by an individual occupying a higher level position than the traveler, except as
otherwise specified in the Travel Order. In addition, you request guidance on travel voucher
approval in the United States Attorney's Offices (USAO).

The Travel Order requires that travel performed by any United States Attorney must be
authorized by you, the Director, Executive Office for the United States Anorneys (EOUSA), or if
you make such a redelegation, the Principal Deputy DirectorIChief of Staff or the Deputy
Dlrector for Administration and Management, EOUSA. For all other travelers in the USAOs,
travel also must be authorized by an individual occupying a higher level position than the
traveler. In cases when a United States Attorney or other official occupying a higher level
position is not in the USAO, travel may be authorized by the individual designated in the
position. Travel vouchers in the USAOs may be approved by an individual occupying a higher
level position than the traveler or the senior financial manager in the USAO. If those individuals
are not in the office, travel vouchers may be approved by the individual designated in the
position. You may also permit the EOUSA Chief Financial Officer to approve travel vouchers as
allowed by the Travel Order.

If you have any questions, please contact me or have your staff contact Melinda Morgan,
Director, JMD Finance Staff, on (202) 616-5800.
